<html>
<title> - EPA'S ENFORCEMENT PROGRAM: TAKING THE ENVIRONMENTAL COP OFF THE BEAT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  EPA'S ENFORCEMENT PROGRAM: TAKING THE ENVIRONMENTAL COP OFF THE BEAT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2019

                               __________

                            Serial No. 116-8
                            
                            
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           

                            


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                        
                             ______
                          

                 U.S. GOVERNMENT PUBLISHING OFFICE 
 36-523 PDF                WASHINGTON : 2020
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
              Subcommittee on Oversight and Investigations

                        DIANA DeGETTE, Colorado
                                  Chair

JAN SCHAKOWSKY, Illinois             BRETT GUTHRIE, Kentucky
JOSEPH P. KENNEDY III,                 Ranking Member
    Massachusetts, Vice Chair        MICHAEL C. BURGESS, Texas
RAUL RUIZ, California                DAVID B. McKINLEY, West Virginia
ANN M. KUSTER, New Hampshire         H. MORGAN GRIFFITH, Virginia
KATHY CASTOR, Florida                SUSAN W. BROOKS, Indiana
JOHN P. SARBANES, Maryland           MARKWAYNE MULLIN, Oklahoma
PAUL TONKO, New York                 JEFF DUNCAN, South Carolina
YVETTE D. CLARKE, New York           GREG WALDEN, Oregon (ex officio)
SCOTT H. PETERS, California
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     1
    Prepared statement...........................................     3
Hon. Brett Guthrie, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     9
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    11

                               Witnesses

Susan Parker Bodine, Assistant Administrator, Office of 
  Enforcement and Compliance Assurance, Environmental Protection 
  Agency.........................................................    13
    Prepared statement...........................................    16
    Answers to submitted questions...............................   176
Eric Schaeffer, Executive Director, Environmental Integrity 
  Project........................................................    52
    Prepared statement...........................................    55
Chris Sellers, Ph.D., Professor of History and Director, Center 
  for the Study of Inequalities, Social Justice, and Policy, 
  Stony Brook University, on behalf of the Environmental Data and 
  Governance Initiative..........................................    67
    Prepared statement...........................................    69
Bruce C. Buckheit, Analyst and Consultant, Former Director, Air 
  Enforcement Division, Office of Enforcement and Compliance, 
  Environmental Protection Agency................................   105
    Prepared statement...........................................   107
Jay P. Shimshack, Ph.D., Associate Professor of Public Policy and 
  Economics, Frank Batten School of Leadership and Public Policy, 
  University of Virginia.........................................   119
    Prepared statement...........................................   121
Bakeyah S. Nelson, Ph.D., Executive Director, Air Alliance 
  Houston........................................................   124
    Prepared statement...........................................   126
Ronald J. Tenpas, Partner, Vinson and Elkins, LLP, Former 
  Assistant Attorney General, Environment and Natural Resources 
  Division, Department of Justice................................   133
    Prepared statement...........................................   135
    Answers to submitted questions...............................   209

                           Submitted Material

Letter of February 25, 2019, from State Senator Jessica Unruh of 
  North Dakota to Mr. Mullin, submitted by Mr. Mullin............   157
Report of February 8, 2019, ``Fiscal Year 2018 EPA Enforcement 
  and Compliance Annual Results,'' Office of Enforcement and 
  Compliance Assurance, Environmental Protection Agency, 
  submitted by Ms. DeGette.......................................   161


  EPA'S ENFORCEMENT PROGRAM: TAKING THE ENVIRONMENTAL COP OFF THE BEAT

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2019

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:31 a.m., in 
room 2322, Rayburn House Office Building, Hon. Diana DeGette 
(chair of the subcommittee) presiding.
    Members present: Representatives DeGette, Kennedy, Ruiz, 
Kuster, Castor, Sarbanes, Tonko, Clarke, Peters, Pallone (ex 
officio), Guthrie (subcommittee ranking member), Burgess, 
McKinley, Griffith, Mullin, Duncan, and Walden (ex officio).
    Also present: Representatives Barragan and Soto.
    Staff present: Mohammad Aslami, Counsel; Kevin Barstow, 
Chief Oversight Counsel; Jeffrey C. Carroll, Staff Director; 
Chris Knauer, Oversight Staff Director; Brendan Larkin, Policy 
Coordinator; Jourdan Lewis, Policy Analyst; Perry Lusk, GAO 
Detailee; Jon Monger, Counsel; Elysa Montfort, Press Secretary; 
Kaitlyn Peel, Digital Director; Mel Peffers, Environment 
Fellow; Tim Robinson, Chief Counsel; Nikki Roy, Policy 
Coordinator; Andrew Souvall, Director of Communications, 
Outreach, and Member Services; C. J. Young, Press Secretary; 
Jen Barblan, Minority Chief Counsel, Oversight and 
Investigations; Mike Bloomquist, Minority Staff Director; Adam 
Buckalew, Minority Director of Coalitions and Deputy Chief 
Counsel, Health; Margaret Tucker Fogarty, Minority Staff 
Assistant; Brittany Havens, Minority Professional Staff Member, 
Oversight and Investigations; Peter Kielty, Minority General 
Counsel; Ryan Long, Minority Deputy Staff Director; Peter 
Spencer, Minority Senior Professional Staff Member, Environment 
and Climate Change; and Natalie Sohn, Minority Counsel, 
Oversight and Investigations.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. The Subcommittee on Oversight and 
Investigations will now come to order.
    Today, the subcommittee is holding a hearing entitled ``EPA 
Enforcement: Taking the Environmental Cop Off the Beat.'' The 
purpose of today's hearing is to explore transit enforcement 
measures during the Trump administration and whether the EPA is 
ensuring consistent enforcement and an implementation of 
Federal environmental regulations and laws, as well as 
resulting impacts on human health and the environment.
    The Chair recognizes herself for the purpose of an opening 
statement.
    For decades, this Oversight and Investigations Panel has 
worked to ensure that the Environmental Protection Agency is 
doing its job, including enforcement of our Nation's 
environmental laws. This work continues today.
    It is important to remember that when we talk about 
enforcement what we are really talking about is protecting our 
environment and our health from polluters. We are talking about 
keeping our rivers and waterways clean and harmful pollutants 
out of the air that each and every one of us breathes. If the 
EPA isn't enforcing the laws that we already have on the books, 
then we all pay the price.
    Unfortunately, the price that some of us pay is greater 
than others, as some of our Nation's bigger polluters are often 
located in or near minority and low-income communities. We have 
a responsibility to care for them, as we do every single person 
who calls America home. And ensuring the EPA is doing its job 
and holding polluters accountable is critical toward protecting 
their health and well-being.
    Now, I understand that enforcing our environmental laws can 
often be a long and intensive process. I also understand that 
there is not one single measurement that can be used to 
accurately evaluate the Agency's overall efforts to enforce our 
laws in any given year. That said, there are some indicators 
that are more telling than others and, when combined with 
others, can help to paint a pretty clear picture of what is 
really going on.
    The numbers you will hear today are from the EPA's own 
Office of Enforcement and Compliance Assurance and were 
included in a report released earlier this month detailing the 
Agency's 2018 enforcement and compliance activities. I am sure 
that the EPA will try to use these numbers today to paint a 
rather rosy interpretation of the enforcement efforts last year 
and probably they will talk about how proud they are of 
everything they did last year. But what I see when I look at 
this report is an Agency that simply is just sitting on its 
hands. I see an Agency that is giving polluters a free pass, 
and it is putting our health and our environment at risk.
    When EPA enforcement activities go down, pollution goes up. 
That is just a fact. And the latest numbers from the EPA show 
its overall enforcement activities for 2018 were at 
historically low levels. For example, and again, this is 
according to the Agency's own numbers, in fiscal year 2018, the 
EPA assessed polluters a total of $69 million in civil 
penalties -- $69 million. That is the lowest level of penalties 
assessed to polluters since the EPA created the Office of 
Enforcement over 20 years ago in 1994.
    Now again, I understand that enforcement efforts can often 
take months or even years to complete and that some of that 
work done in one year may not be accurately reflected in the 
overall total for any given year but the numbers seem to 
indicate a disturbing trend. And while no one factor can tell 
the whole story, there are some indicators that, when taken 
together, can help us paint a pretty clear picture of EPA's 
overall efforts to enforce our laws.
    For example, the total number of facilities that the EPA 
inspected last year is the lowest since 1994. The total number 
of civil cases it initiated is the lowest since 1982. And the 
number of cases it referred to the Department of Justice, the 
lowest since 1976, my freshman year in college.
    So, while I would like to sit here and believe that the EPA 
is serious about enforcing our Federal environmental laws, it 
is hard to ignore the facts and it is hard to ignore headline 
after headline which suggests the opposite. For example, 
Washington Post: ``Under Trump, EPA Inspections Fall to a 10-
Year Low.'' New York Times: ``EPA Enforcement Drops Sharply in 
Trump's 2nd Year in Office.'' NBC News: ``EPA Criminal Action 
Against Polluters Hits 30-Year Low under Trump.'' Christian 
Science Monitor: ``Has the EPA Lost Its Teeth?''
    So if the EPA isn't enforcing our environmental laws, who 
is? If the EPA isn't acting as the Nation's environmental 
watchdog that it was created to be, then it is just simply not 
acting in the best interest of the American taxpayers.
    The question is why. Why is the EPA sitting on the 
sidelines?
    Based on data provided by the Agency, the EPA has cut at 
least 17 percent of the personnel and that doesn't even include 
the personnel of the ten regional offices. We are also going to 
hear that the people who have remained at the EPA are facing 
even greater challenges when trying to perform their laws.
    Congress can do something about this. We need to require 
compliance. That is why we are having this hearing and that is 
why we expect the EPA to do its job.
    So, I am looking forward to the testimony today. I am 
looking forward to hearing from everybody.
    [The prepared statement of Ms. DeGette follows:]

                Prepared statement of Hon. Diana DeGette

    For decades, this oversight and investigations panel has 
worked to ensure that the Environmental Protection Agency is 
doing its job--including enforcing our Nation's environmental 
laws.
    That work continues today.
    It's important to remember, that when we talk about 
enforcement, what we are really talking about is protecting our 
environment--and our health--from polluters.
    We're talking about keeping our rivers and waterways clean; 
and harmful pollutants out of the air that each and every one 
of us breathes.
    If the EPA isn't enforcing the laws that we already have on 
the books, then we all pay the price.
    Unfortunately, the price some of us pay is greater than 
others--as some of our Nation's biggest polluters are often 
located in, or near, mostly minority and low-income 
communities.
    We have a responsibility to care for them, as we do every 
single person who calls America home. And ensuring the EPA is 
doing its job, and holding polluters accountable, is critical 
toward protecting their health and well-being.
    Now, I understand that enforcing our environmental laws can 
often be a long and intensive process. I also understand that 
there is not one single measurement that can be used to 
accurately evaluate the Agency's overall efforts to enforce our 
laws in a given year.
    That said, there are some indicators that are more telling 
than others, and when combined with others can help to paint a 
pretty clear picture of what's really going.
    The numbers you'll hear today are from the EPA's own Office 
of Enforcement and Compliance Assurance, and were included in a 
report it released earlier this month detailing the Agency's 
2018 enforcement and compliance activities.
    I'm sure the EPA will try to use these numbers today to 
paint a rather rosy interpretation of its enforcement efforts 
last year. And they'll probably going on and on about how proud 
they are of all that they did last year.
    But what I see when I look at this report is an Agency 
that's sitting on its hands. I see an Agency that's giving 
polluters a free pass. And it's putting our health and 
environment at risk.
    When EPA enforcement activities go down, pollution goes 
up--that's a fact. And the latest numbers from the EPA show its 
overall enforcement activities for 2018 were at a historically 
low levels.
    For example--and, again, this is according to the Agency's 
own numbers--in fiscal year 2018 the EPA assessed polluters a 
total of $69 million in civil penalties. $69 million! That's 
the lowest total amount of penalties assessed to polluters 
since the EPA created the office of enforcement in 1994.
    Again, I understand that enforcement efforts can often take 
months and even years to complete, and that some of the work 
done in one year may not be accurately reflected in the overall 
total for that given year. But these numbers seem to suggest a 
disturbing trend taking place at EPA.
    And while no one figure can tell the whole story, there are 
some indicators that--when taken together--can help us paint a 
pretty clear picture of the EPA's overall efforts to enforce 
our laws.
    For example, the total number of facilities that the EPA 
inspected last year is the lowest since 1994. The total number 
of civil cases it initiated is the lowest since 1982. And the 
number of cases it referred to the Department of Justice--the 
lowest since 1976.
    So, while I'd like to sit here and believe that the EPA is 
serious about enforcing our Federal environmental laws, it's 
hard to ignore the facts. And it's hard to ignore headline 
after headline which suggest the opposite. For example:
    * Washington Post [quote]: ``Under Trump, EPA inspections 
fall to a 10-year low.''
    * New York Times [quote]: ``EPA Enforcement Drops Sharply 
in Trump's 2nd Year in Office.''
    * NBC News: [quote] ``EPA criminal action against polluters 
hits 30-year low under Trump.''
    * Christian Science Monitor [quote]: ``Has the EPA Lost Its 
Teeth?''
    If the EPA isn't enforcing our environmental laws, who is?
    If the EPA isn't acting as the environmental watchdog that 
it was created to be, then it's not acting in the best interest 
of the American taxpayers who fund it.
    The question is: why?
    Why is the EPA suddenly sitting on the sidelines?
    Based on data provided by the Agency, since President Trump 
took office, EPA has cut at least 17 percent of the personnel 
assigned to its main enforcement office. That doesn't include 
any of the personnel they have lost at any one of the EPA's 10 
regional office, where much of the enforcement work really gets 
done.
    We'll also hear today how those who remained at EPA are 
facing even greater challenges when trying to perform their 
jobs under this administration.
    When President Trump announced his plans to cut the EPA by 
nearly 25 percent, he sent a pretty clear message to polluters 
and to the career staff at EPA where his priorities lied.
    Had those proposed cuts been successful, EPA's budget would 
have been cut by nearly $2.6 billion and its workforces would 
have reduced by more than 3,100 employees.
    Thankfully, Congress was able to prevent those massive cuts 
from going into effect. But, by simply proposing them in the 
first place, this administration accomplished its goal of 
sending a pretty clear message.
    Our committee has heard from Agency staff who have reported 
feeling pressure from EPA political appointees to go easy on 
industry. The EPA, under the Trump administration, has even 
instituted a new political review process before Agency staff 
can move forward with any enforcement actions against a 
polluter.
    If that weren't enough, the EPA--under the Trump 
administration--has continued to delegate more and more of its 
enforcement authority to the States--which all have varying 
laws and different approaches to enforcing them.
    Delegating enforcement of our Nation's environment laws to 
the States makes them moot. And to me, that's unacceptable.
    The EPA's argument that its enforcement efforts should not 
be evaluated simply on the amount of fines it issues or actions 
it takes, but instead on how many polluters it's able to bring 
into compliance, is a farce. Compliance without enforcement 
does not work.
    And while encouraging polluters to comply with our 
environmental laws is certainly a valiant effort to undertake, 
turning a blind eye to some of the worst polluters in the 
process will not be tolerated.
    If evidence and experience have shown us one thing it's 
that the worst polluters are also the most unlikely to 
voluntarily raise their hands and ask for help.
    And while we are always glad to hear about the EPA's 
successes in allowing an industry to self-police itself, I am 
always skeptical when I hear of a government Agency allowing 
the foxes to guard the henhouse.
    It has been widely reported that the Trump administration 
has appointed dozens of former industry lobbyists to high-
ranking jobs within the administration. One of the things that 
troubles me most is how many of those appointees are at the 
EPA.
    Just yesterday, in fact, The Washington Post reported that 
EPA political leaders may have interfered in several 
enforcement matters undertaken by the Agency--including some 
that involved former industry clients, which is a clear 
violation of ethics rules.
    In the past 2 years, we have seen an Agency that's 
constantly trying to move the goal posts of what is allowable 
under the law.
    We have seen leadership at the EPA attempt to roll back 
some of our most critical environmental safeguards--including 
weakening our protections against mercury, loosening our 
oversight of the oil and gas industry, and undoing the highly 
successful vehicle fuel-efficiency standards that have worked 
so well to help reduce our overall greenhouse gas emissions.
    Congress has worked too hard, on behalf of the American 
people, to enact some of the rules and regulations that work to 
protect our environment and health. And this panel will not sit 
back and allow this administration to simply ignore those laws.
    We expect the EPA to do its job.
    We expect it to enforce every single rule and regulation we 
have the books.
    And we expect it to vigorously protect the American people 
and our environment.
    Thank you.

    Ms. DeGette. And at this point, I am now happy to recognize 
the ranking member for his opening statement.

 OPENING STATEMENT OF HON. BRETT GUTHRIE, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Guthrie. Thank you, Chair DeGette, for holding this 
important hearing today.
    Congress has enacted several important laws to protect the 
environment and human health and the U.S. Environmental 
Protection Agency, EPA, is responsible for working within its 
State, Tribal, and Federal partners to help to put these laws 
into effect. The EPA must develop and enforce environmental 
regulations for laws such as the Clean Air Act, the Clean Water 
Act, the Safe Drinking Water Act, to name just a few.
    I am encouraged by EPA's commitment to ensuring compliance 
with these important environmental laws and I want to thank the 
thousands of Federal and State workers who spent countless 
hours helping to achieve these goals.
    Every few years there seems to be a major enforcement 
action resulting in a substantial amount of penalties and 
fines. For example, the 2013 enforcement numbers included a 
settlement with BP following the devastating 2010 Gulf of 
Mexico spill. Similarly, the 2017 enforcement numbers included 
the record Volkswagen Clean Air Act civil settlement. In this 
year, fiscal year 2019, the numbers will include the Fiat 
Chrysler settlement finalized just last month. In fact, the 
dollar amount for civil judicial administrative penalties in 
the fiscal year 2019 is on track to be one of the largest ever.
    These enforcement actions are extremely important to help 
protect the environment, ensure compliance with Federal laws 
and regulations and are the type of enforcement action the 
Federal Government is best suited to pursue, rather than the 
States. But the large fine amounts in certain years does not 
mean the Agency and its partners are any less diligent about 
protecting the environment in any other years where these large 
settlements do not occur.
    Therefore, while monitoring enforcement actions is an 
important tool to promote compliance with environmental laws 
and regulations, it is important that we don't lose sight of 
the most important goals, which are protecting the environment 
and protecting human health.
    This administration has emphasized the need to focus on 
compliance and ensure that a broad range of compliance 
assurance tools are available for use by the Agency. We have a 
lot of questions today about what EPA is doing to promote 
compliance and how programs such as the self-disclosure 
violations policies can help achieve compliance.
    I am looking forward to hearing more about how the EPA is 
working with States to promote State primacy and authorized 
programs. As we all know, the EPA works in collaboration with 
States and tribal organizations to conduct inspections and 
enforcement. In 2017, the EPA formed a workgroup with the 
Environmental Council of the States to develop principles and 
best practices for State and EPA collaboration on a number of 
issues such as inspections and enforcement.
    The working group issued their final report in August 2018. 
I have heard that these initiatives are working and that States 
are beginning to feel like they have a seat at the table. The 
EPA also has worked--also works with other Federal agencies 
when enforcing some of the environmental laws. That is one 
reason I am glad we have the Honorable Ron Tenpas on the second 
panel. Mr. Tenpas previously served as an Assistant Attorney 
General for the Environment and Natural Resources Division of 
the U.S. Department of Justice and it will be helpful to hear 
how the Environment and Natural Resources Division at DOJ works 
with the EPA to ensure robust enforcement of our Nation's 
environmental laws.
    I think we can all agree that the desired outcome of any 
compliance program is to prevent pollution and protect our 
environment for ourselves, our children, and our grandchildren. 
I am looking forward to hearing about EPA--about how the EPA is 
working to accomplish these goals. Considering the ebb and 
flows of enforcement fines and penalties within an 
administration, let alone between administrations, I hope we 
don't get ahead of ourselves today and imply that 1 year of 
slightly lower enforcement accomplishments signals that EPA is 
not doing its job or ensuring compliance with our Nation's 
environmental laws.
    And I yield back.
    [The prepared statement of Mr. Guthrie follows:]

                Prepared statement of Hon. Brett Guthrie

    Thank you, Chair DeGette, for holding this important 
hearing today.
    Congress has enacted several important laws to protect the 
environment and human health and the U.S. Environmental 
Protection Agency (EPA) is responsible for working with its 
State, Tribal, and Federal partners to help to put these laws 
into effect. The EPA must develop and enforce environmental 
regulations for laws such as the Clean Air Act, the Clean Water 
Act, and the Safe Drinking Water Act, to name just a few. I am 
encouraged by the EPA's commitment to assuring compliance with 
these important environmental laws and I want to thank the 
thousands of Federal and State workers that have spent 
countless hours helping to achieve these goals.
    Every few years, there seems to be a major enforcement 
action resulting in a substantial amount of penalties and 
fines. For example, the 2013 enforcement numbers included a 
settlement with BP following the devastating 2010 Gulf of 
Mexico oil spill. Similarly, the 2017 enforcement numbers 
included the record Volkswagen Clean Air Act Civil Settlement. 
And this year--fiscal year 2019--the numbers will include the 
Fiat Chrysler settlement finalized just last month. In fact, 
the dollar amount for civil, judicial, and administrative 
penalties in fiscal year 2019 is on track to be one of the 
largest ever.
    These enforcement actions are extremely important to help 
protect the environment and ensure compliance with Federal laws 
and regulations--and are the type of enforcement actions that 
the Federal Government is best suited to pursue rather than the 
States--but the large fine amounts in certain years does not 
mean the Agency and its partners are any less diligent about 
protecting the environment in other years where these large 
settlements do not occur.
    Therefore, while monitoring enforcement actions is an 
important tool to promote compliance with environmental laws 
and regulations, it is important that we don't lose sight of 
the most important goals--which are protecting the environment 
and protecting human health. This administration has emphasized 
the need to focus on compliance and ensure that a broad range 
of compliance assurance tools are available for use by the 
Agency. We have a lot of questions today about what EPA is 
doing to promote compliance and how programs such as the self-
disclosure violations policies can help achieve compliance.
    I also am looking forward to hearing more about how the EPA 
is working with the States to promote State primacy in 
authorized programs. As we all know, the EPA works in 
collaboration with States and Tribal organizations to conduct 
inspections and enforcement. In September 2017, the EPA formed 
a work group with the Environmental Council of the States to 
develop principles and best practices for State and EPA 
collaboration on a number of issues, such as inspections and 
enforcement. The working group issued their final report in 
August 2018. I've heard that these initiatives are working, and 
that States are beginning to feel like they have a seat at the 
table.
    The EPA also works with other Federal agencies when 
enforcing some of the environmental laws, and that's one of the 
reasons I'm glad we have the Honorable Ron Tenpas on the second 
panel. Mr. Tenpas previously served as an Assistant Attorney 
General for the Environment and Natural Resources Division of 
the U.S. Department of Justice, and it will be helpful to hear 
how the Environment and Natural Resources Division at DOJ works 
with EPA to ensure robust enforcement of our Nation's 
environmental laws.
    I think we can all agree that the desired outcome of any 
compliance program is to prevent pollution and protect our 
environment for ourselves, our children, and our grandchildren. 
I'm looking forward to hearing more about how the EPA is 
working to accomplish these goals. Considering the ebbs and 
flows of enforcement fines and penalties within an 
administration, let alone between administrations, I hope we 
don't get ahead of ourselves today and imply that 1 year of 
slightly lower enforcement accomplishments signals that the EPA 
is not doing its job of ensuring compliance with our Nation's 
environmental laws.

    Ms. DeGette. Thank you. The Chair will now recognize the 
chairman of the full committee, Mr. Pallone, for 5 minutes for 
the purposes of an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair. Today the committee 
begins critical oversight of the Trump EPA's enforcement 
program, something that the previous Republican majority 
ignored. Congress can pass all the legislation it wants to 
protect against air pollution, contaminated drinking water, and 
hazardous chemical risks but, ultimately, the EPA must 
implement and enforce those laws.
    It is, therefore, impossible to assess EPA's effectiveness 
without looking at whether the Agency is enforcing the Federal 
environmental statutes that are already on the books and there 
is no doubt that the Trump EPA's enforcement records is 
abysmal, the worst in decades.
    Over the past few weeks, news reports suggest that EPA is 
simply not maintaining the type of vigorous enforcement that is 
needed to protect our environment and communities from the 
worst polluters. For example, a report in the Christian Science 
Monitor found that the number of inspections conducted by the 
Agency in 2018 were the lowest since records began in 1994. It 
also reported that the number of civil cases initiated by the 
EPA was the lowest since 1982 and the number of judicial 
referral cases for 2018 was 110. That is less than half the 
average annual number of 239. There is no way to sugar-coat 
these numbers.
    It appears that the Trump EPA is relying on industry to 
voluntarily come forward and disclose when they are not in 
compliance. Nobody here can really believe that the worst 
offenders of environmental laws would voluntarily come forward 
to disclose their violations. EPA must have a robust 
enforcement presence. The Agency needs to actively conduct 
investigations to determine whether violations are occurring. 
It needs to inspect facilities, start cases, and where 
appropriate, refer cases to the Department of Justice. And the 
EPA needs to issue penalties that not only make polluters pay 
when they break the law, but also force polluters to come into 
compliance so that they are no longer in violation.
    And it takes a lot of people to do all of this difficult 
and resource-intensive work but, unfortunately, the number of 
staff in the Enforcement Office has continued to drop over the 
years. This is not surprising, considering President Trump 
promised to reduce the Agency on the campaign trail to, I 
quote, ``little tidbits'' and then attempted to fulfill that 
threat by proposing a nearly 23 percent budget cut last year.
    Now Congress did not let President Trump's draconian 
proposal take effect, but industry heard loud and clear that 
this President was not prioritizing EPA's work. The Trump EPA 
was taking the cop off the beat.
    This extreme budget proposal was essentially a message from 
the Trump administration to EPA employees that they should 
scale back their work, but without these employees, the EPA 
simply cannot do its job to make sure our communities are 
protected from illegal pollution.
    So I just want to send a message to the dedicated career 
staff at EPA who are watching today and say a very public thank 
you. Thank you for continuing to protect human health and the 
environment through the hard work you do each and every day. It 
is not an easy task with an administration that simply does not 
share your mission.
    So let there be no doubt that this committee will continue 
to hold the Trump administration accountable.
    And let me say, Madam Chair, in closing, you know we talk a 
lot in this place about the Constitution and the separation of 
powers. Congress enacts the laws and provides the funding. The 
Executive is supposed to enforce the law. That is the 
separation of powers. It is--you know, you learned this in 
civics. And I just wish that the Trump administration would 
follow the Constitution. Don't try to enact the laws and decide 
where the money goes. Do your job. Enforce the law. That is 
what the Executive Branch is supposed to do. Somehow the Trump 
administration is simply turning that and the Constitution on 
its head. And it is very unfortunate, but I appreciate the 
fact, Madam Chair, that we are going to get to the bottom of 
this enforcement issue and point out the lack of enforcement of 
this administration.
    I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today, the committee begins critical oversight of the Trump 
EPA's enforcement program, something that the previous 
Republican Majority ignored.
    Congress can pass all of the legislation it wants to 
protect against air pollution, contaminated drinking water, and 
hazardous chemical risks, but ultimately, the EPA must 
implement and enforce those laws.
    It is, therefore, impossible to assess EPA's effectiveness 
without looking at whether the Agency is enforcing the Federal 
environmental statutes that are already on the books. And there 
is no doubt that the Trump EPA's enforcement record is 
abysmal--the worst in decades.
    Over the past few weeks, news reports suggest that EPA is 
simply not maintaining the type of vigorous enforcement that is 
needed to protect our environment and communities from the 
worst polluters.
    For example, a report in the Christian Science Monitor 
found that the number of inspections conducted by the Agency in 
2018 were the lowest since records began in 1994. It also 
reported that the number of civil cases initiated by the EPA 
was the lowest since 1982. And the number of judicial referral 
cases for 2018 was 110--that's less than half the average 
annual number of 239. There is no way to sugar coat these 
numbers.
    It appears that the Trump EPA is relying on industry to 
voluntary come forward and disclose when they are not in 
compliance. Nobody here can really believe that the worst 
offenders of environmental laws would voluntarily come forward 
to disclose their violations. EPA must have a robust 
enforcement presence. The Agency needs to actively conduct 
investigations to determine whether violations are occurring. 
It needs to inspect facilities, start cases and, where 
appropriate, refer cases to the Department of Justice. And the 
EPA needs to issue penalties that not only make polluters pay 
when they break the law, but also force polluters to come into 
compliance so that they are no longer in violation.
    It takes a lot of people to do all of this difficult and 
resource-intensive work, but unfortunately the number of staff 
in the enforcement office has continued to drop over the years.
    This is not surprising considering President Trump promised 
to reduce the Agency on the campaign trail to, ``little 
tidbits,'' and then attempted to fulfill that threat by 
proposing a nearly 25 percent budget cut last year.
    Although Congress did not let President Trump's draconian 
proposal take effect, industry heard loud and clear that this 
President was not prioritizing EPA's work. The Trump EPA was 
taking the cop off the beat.
    This extreme budget proposal was essentially a message from 
the Trump administration to EPA employees that they should 
scale back their work.
    But without these employees, the EPA simply cannot do its 
job to make sure our communities are protected from illegal 
pollution.
    In closing, I'd like to send a message to the dedicated 
career staff at EPA who are watching today and say a very 
public thank you. Thank you for continuing to protect human 
health and the environment through the hard work you do each 
and every day. It is not an easy task with an administration 
that simply does not share your mission.
    Let there be no doubt that, this committee will continue to 
hold the Trump administration accountable.
    Thank you, I yield back.

    Ms. DeGette. The Chair now recognizes the ranking member of 
the full committee, Mr. Walden, for 5 minutes for purposes of 
an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well good morning, Chair DeGette, and thanks 
for holding this important hearing today.
    One of the core missions of the EPA is one that I think we 
all agree with, for Americans to have clean air, clean land, 
and clean water. The EPA works toward this worthy goal through 
a variety of means, including partnerships with State and local 
governments, grants, the States, nonprofits, educational 
groups, and others developing and enforcing regulations, 
studying environmental issues, teaching people, particularly 
students, about the environment, and through enforcement and 
compliance.
    The EPA's Office of Enforcement and Compliance Assurance 
recently released its fiscal year 2018 EPA enforcement and 
compliance annual results and concerns have been raised 
regarding a decline in the 2018 numbers. Well no one is 
disputing that some of the numbers from 2018 are lower than in 
past years. Compliance is hard to measure. And you can't simply 
measure compliance by the number of enforcement actions and the 
total amounts of fines generated by the EPA each year. You have 
to have a longer term look. Therefore, I would like to put some 
of these concerns into context.
    First, there has been a steady decline in the number of 
Federal inspections and evaluations conducted by the EPA since 
2012 and there has been a steady decline in the number of civil 
enforcement initiations and conclusions for the past decade. A 
decline in these figures is not unique to this administration.
    In addition, the EPA's fiscal year 2018 results show the 
EPA's voluntary disclosure program continues to see an increase 
in the number of facilities that voluntarily disclose 
violations. Fiscal year 2018 saw a 47 percent increase in 
facilities self-disclosing violations over 2017, with 532 
entities at over 1500 facilities voluntarily disclose 
violations pursuant to EPA's self-disclosure policies. The 
dramatic increase in self-reports is a good thing, 
demonstrating that business owners are trying to comply with 
the complex laws and regulations enforced by the EPA.
    While there is a downward trend with some of these figures 
over the course of multiple administrations, some figures 
fluctuate drastically year to year. For example, the combined 
civil, judicial, and administrative penalties figure has 
fluctuated between $69 million and $252 million over the past 3 
decades, not accounting for big spikes in years that contained 
big cases such as Volkswagen and BP.
    While we are only midway through the fiscal year 2019, we 
already know the number for this year will be high. The EPA has 
already hit $262 million in combined civil, judicial, and 
administrative penalties in this fiscal year, Madam Chair. This 
is due in part to the resolution of the Fiat Chrysler case, 
which was settled just last month for more than $200 million, 
including the civil penalties, recall, and mitigation programs.
    In addition, the average length of time it takes between 
when a case is initially brought to the EPA and when it is 
settled can be 2 to 3 years, sometimes more. Solely focusing on 
a 2-year window to assess overall enforcement and compliance 
trends simply doesn't make sense.
    And finally, I think it is critical to today's conversation 
to note the importance of EPA's partnership and cooperation 
with the States and regions when it comes to enforcement. Now 
while EPA plays a critical role in the process, the majority of 
inspections and investigations, as well as the day to day work, 
are conducted at the State level. Under the theory of 
cooperative federalism, the States are the ones monitoring most 
of the enforcement, with the EPA stepping in if there is a 
failure at the State level or if there is a big and complex 
case that requires additional resources or expertise.
    There appears to be a lot of pressure for the EPA to step 
in and handle cases that aren't necessarily Federal cases but, 
as a society, we don't typically do that with other issues. For 
example, the local or State authorities would handle most drug-
related offenses and a Federal entity, such as the FBI, would 
only step in if the case was a larger complex case or one that 
crossed State lines. So why should environmental enforcement 
compliance be in any different?
    So in that vein, I am encouraged by the work that has been 
done by the Environmental Council of States and their 
cooperative federalism initiative to improve the working 
relationship between State environmental agencies and the EPA, 
including the Compliance Assurance Workgroup that has 
established--been established to find ways to improve the 
Federal-State relationship in the context of compliance 
assurance.
    So I think these are important partnerships that should be 
embraced and improved to ensure that we are working on 
environmental enforcement and compliance at all levels of 
government, Madam Chair, to work towards a common goal, a 
cleaner environment.
    I want to thank our witnesses for being here today and I 
look forward to the conversation and hope we can have a 
holistic way to ensure and measure compliance.
    With that, Madam Chair, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Chair DeGette, for holding this important 
hearing today.
    One of the core missions of the EPA is one that I think we 
all agree with--for Americans to have clean air, clean land, 
and clean water. The EPA works toward this worthy goal through 
a variety of means, including partnerships with State and local 
governments, grants to States, nonprofits, educational groups, 
and others, developing and enforcing regulations, studying 
environmental issues, teaching people-particularly students-
about the environment, and through enforcement and compliance.
    The EPA's Office of Enforcement and Compliance Assurance 
(OECA) recently released its Fiscal Year 2018 EPA Enforcement 
and Compliance Annual Results and concerns have been raised 
regarding a decline in the 2018 numbers. While no one is 
disputing that some of the numbers from FY 2018 are lower than 
in years past, compliance is hard to measure, and you can't 
simply measure compliance by the number of enforcement actions 
and the total amount of fines generated by the EPA each year. 
Therefore, I'd like to put some of these concerns into context.
    First, there has been a steady decline in the number of 
Federal inspections and evaluations conducted by the EPA since 
2012 and there has been a steady decline in the number of civil 
enforcement initiations and conclusions for the past decade--
the decline in these figures is not unique to this 
administration.
    In addition, the EPA's FY 2018 results show that EPA's 
Voluntary Disclosure Program continues to see an increase in 
the number of facilities that voluntarily disclosed violations. 
FY 2018 saw a 47 percent increase in facilities self-disclosing 
violations over 2017, with 532 entities at over 1,500 
facilities voluntarily disclosed violations pursuant to EPA's 
self-disclosure policies. The dramatic increase in these self-
reports is a good thing, demonstrating that business owners are 
trying to comply with the complex laws and regulations enforced 
by the EPA.
    While there is a downward trend with some of these figures 
over the course of multiple administrations, some figures 
fluctuate drastically year to year. For example, the combined 
civil judicial and administrative penalties figure has 
fluctuated between$69 million and $252 million over the past 
three decades, not accounting for big spikes in years that 
contained big cases such as Volkswagen, and BP.
    While we are only midway through fiscal year 2019, we 
already know that the numbers for this year will be high-EPA 
has already hit $262 million in combined civil judicial and 
administrative penalties this fiscal year. This is due in part 
to the resolution of the Fiat Chrysler case, which was settled 
just last month for more than $200 million, including the civil 
penalties, recall, and mitigation programs.
    In addition, the average length of time it takes between 
when a case is initially brought to EPA and when it is settled 
can be 2 to 3 years, sometimes more. Solely focusing on a 2-
year window to assess overall enforcement and compliance trends 
simply doesn't make sense.
    Finally, I think it's critical to today's conversation to 
note the importance of EPA's partnership and cooperation with 
the States and regions when it comes to enforcement. While EPA 
plays a critical role in the process, the majority of 
inspections and investigations, as well as the day-to-day work, 
are conducted at the State level. Under the theory of 
cooperative federalism, the States are the ones monitoring most 
of the enforcement, with the EPA stepping in if there is a 
failure at the State level or if there is a big and complex 
case that requires additional resources or expertise.
    There appears to be a lot of pressure for the EPA to step 
in and handle cases that aren't necessarily Federal cases, but 
as a society we don't typically do that with other issues. For 
example, the local or State authorities would handle most drug 
related offenses, and a Federal entity, such as the FBI, would 
only step in if the case was a larger complex case or one that 
crossed State lines--so why should environmental enforcement 
and compliance be any different?
    In that vein, I'm encouraged by work that has been done by 
the Environmental Council of the States (ECOS) and their 
Cooperative Federalism initiative to improve the working 
relationship between State environmental agencies and the EPA, 
including a Compliance Assurance Workgroup that was established 
to find ways to improve the State-Federal relationship in the 
context of compliance assurance. I think these are important 
partnerships that should be embraced and improved to ensure 
that we are working on environmental enforcement and compliance 
at all levels of government to work towards a common goal--a 
cleaner environment.
    I want to thank the witnesses for being here today. I look 
forward to today's conversation and hope that we can look at 
holistic ways to ensure and measure compliance, and I yield 
back.

    Ms. DeGette. Thank you so much, Mr. Walden.
    I ask unanimous consent that the Members' written opening 
statements be made part of the record. Without objection, they 
will be entered into the record.
    I ask unanimous consent that Energy and Commerce members 
not on the Subcommittee on Oversight and Investigations be 
permitted to participate in today's hearing.
    Without objection, so ordered.
    I would now like to introduce our first panel witness for 
today's hearing. Our witness is Ms. Susan Bodine, who is the 
Assistant Administrator of the Office of Enforcement and 
Compliance Assurance of the U.S. Environmental Protection 
Agency.
    Welcome, Ms. Bodine, and thank you for appearing in front 
of our committee. You are aware, I know, that the committee is 
holding an investigative hearing and when doing so has had the 
practice of taking testimony under oath. Do you have any 
objections to testifying under oath?
    Ms. Bodine. I have no objection to that, and I am also 
aware that whether or not you are under oath, it is a crime to 
lie to Congress under Title 18.
    Ms. DeGette. Thank you. Thank you very much.
    And let the record reflect the witness has responded no.
    The Chair also advises you that, under the rules of the 
House and the rules of the committee, you are entitled to be 
accompanied by counsel. Do you desire to be accompanied by 
counsel during your testimony today?
    Ms. Bodine. No.
    Ms. DeGette. OK, let the record reflect that the witness 
has responded no.
    If you would, then, please rise and raise your right hand 
so you may be sworn in.
    [Witness sworn.]
    Ms. DeGette. And as you stated, Ms. Bodine, you are subject 
to the penalty set forth in Title 18, Section 1001 of the U.S. 
Code.
    And with that now, the Chair will recognize Ms. Bodine for 
a 5-minute summary of their written statement. And in front of 
you--you can see it--there is a microphone and a series of 
lights. The light turns yellow when you have a minute left, and 
it turns red to indicate your time has come to an end. And with 
that, you are recognized. Thank you.

  STATEMENT OF SUSAN PARKER BODINE, ASSISTANT ADMINISTRATOR, 
 OFFICE OF ENFORCEMENT AND COMPLIANCE ASSURANCE, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Bodine. Thank you, Madam Chair, Ranking Member Guthrie, 
and members of the subcommittee. I am Susan Bodine. I am the 
Assistant Administrator for EPA's Office of Enforcement and 
Compliance Assurance.
    Now, you have my written testimony that gives an overview 
of our enforcement approach, our ongoing work to increase the 
efficiency and effectiveness of our enforcement and compliance 
assurance work, and the examples of the good work that EPA's 
enforcement staff that I am very proud to share with you. So I 
want to use my time as an opportunity to begin a dialogue about 
EPA's enforcement program.
    Now, some are judging our work based on a narrow set of 
parameters and then drawing the conclusion that EPA is somehow 
soft on environmental violators, that EPA doesn't care about 
compliance with the law and I am here to tell you that that is 
absolutely not true. This narrative, which appeared in the 
press, since the beginning of this administration, discredits 
the tremendous work of EPA's Enforcement and Compliance 
Assurance staff. It makes their job more difficult. If a 
company doubts our resolve, it will take longer to reach a 
settlement and it could mean that we have to spend the time and 
the resources to litigate our claims.
    I was confirmed as the Assistant Administrator in December 
of 2017. Beginning in March and throughout the spring of 2018, 
my headquarters staff and I held video teleconferences with the 
enforcement staff of each of the regions, and I followed those 
up with regional visits to each of the ten regions over the 
summer, and then we did another round of VTCs in the fall. Now 
these interactions are critical because about 1800 of the OECA 
FTE, the staff, are in the regions and that is where most of 
the enforcement and compliance assurance work takes place.
    My message to the staff has been consistent on the VTCs, at 
all-hands meetings in the regions, and in email messages. And I 
want to read to you an excerpt from a message that I sent to 
all of the EPA enforcement staff in June of 2018. We are 
committed to the protection of human health in the environment 
by vigorously enforcing the law. There should be no slowdown in 
our efforts to correct noncompliance. You have my support and 
my thanks for those efforts. Our goal is to ensure compliance 
using all of our enforcement and compliance tools, including 
formal administrative and judicial enforcement, as well as more 
informal tools, where appropriate. We will not hesitate to 
deter serious noncompliance using tools up to and include 
criminal enforcement. We are working to more timely get a 
return to compliance and cooperative federalism means that we 
cooperate with States and we discuss how our combined resources 
can best address noncompliance. It does not mean that EPA stays 
out of authorized States.
    Again, I sent that message to all the staff in June. You 
can see that I'm pushing back on this myth--these myths about 
our enforcement program. A strong enforcement program does not 
mean that we have to collect a particular dollar amount of 
penalties or take a particular number of formal actions.
    When I had my confirmation hearing, Senator Inhofe asked me 
if I was going to impose a quota on enforcement actions and I 
assured him that I believe that enforcement is a critical tool 
but it's not an end to itself. I don't support enforcement 
quotas. I do support making sure that the OECA, the enforcement 
staff, are getting credit for their work whether or not they 
take a formal enforcement action, as long we're achieving 
compliance with the law.
    Also at my confirmation hearing, Senator Whitehouse asked 
me if I would continue to report the categories of annual 
enforcement results that had been reported by the prior 
administration and I assured him that I would. However, I want 
everyone to understand that these measures do not adequately 
represent the progress and the results that we are achieving in 
EPA's Enforcement and Compliance Assurance Program.
    For example, one of the cases that is cited in my written 
testimony, Harcros, in that case we addressed compliance with 
chemical safety regulations at 28 facilities in 18 States. That 
case counts in our end-of-year results as one case.
    The staff are spending a lot of time building State 
capacity as well, for example, with joint inspections. And if 
we take a joint inspection in an offer as partnering with the 
State, it may be that we find violations and the State takes 
the formal enforcement action and not EPA. We call those State 
assists but we're getting compliance.
    We're also developing new measure to capture those efforts 
because I want the staff to get credit for all the work they 
are doing.
    And I'm sorry, Madam Chair, but the staff--I have to say 
this. The staff is not sitting on its hands. They are working 
very hard.
    And so I'm sorry, I'm going to go a tiny bit over. My 
approach isn't identical to my predecessor's. I believe we 
should focus our enforcement efforts on solving environmental 
problems but not targeting specific industries, but I want to 
assure you that our enforcement and compliance assurance 
program continues to play a critical role in protecting human 
health and the environment.
    And I'm happy to answer your questions.
    [The prepared statement of Ms. Bodine follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Ms. DeGette. Thank you. It is now time for Members to ask 
questions. And the Chair recognizes herself for 5 minutes.
    Ms. Bodine, thank you for your testimony. And I appreciate 
that you sent a memo to your staff saying that we are going to 
robustly enforce the laws, but I want to ask you about some of 
these statistics, and most of them are about statistics.
    And I know the EPA staff are working hard.
    Ms. Bodine. Thank you.
    Ms. DeGette. But I also know that their numbers have been 
depleted, and I think we have got some questions about that 
today.
    But and I also know that you are upset about some of this 
press but the press that I am looking at is talking about some 
of the numbers of the EPA and that is what I want to talk to 
you about this morning.
    Now injunctive relief represents the estimated cost of 
actions taken by a defendant to come into compliance with the 
law so they are no longer in violation. Is that generally 
correct?
    Ms. Bodine. Yes, that is correct.
    Ms. DeGette. Now the EPA recently announced that in fiscal 
year 2018, adjusted for inflation, the estimated dollar value 
of the injunctive relief was $3.95 billion. Is that correct?
    Ms. Bodine. Yes, I believe that is correct.
    Ms. DeGette. OK. Now, I looked at a report that was done by 
the Christian Science Monitor, I mentioned this in my opening 
statement, which says that the average annual cost of 
injunctive relief is $7.74 billion and the EPA's fiscal year 
2018 figure was the lowest it had been in 15 years. Are you 
aware of this report, Ms. Bodine?
    Ms. Bodine. I read the Christian Science Monitor----
    Ms. DeGette. OK, so you are aware of it.
    Ms. Bodine. I read the article.
    Ms. DeGette. OK.
    Ms. Bodine. But the--may I?
    Ms. DeGette. Well, OK, so you know the report.
    Ms. Bodine. Yes.
    Ms. DeGette. Now, I also understand the inspections, which 
are key to EPA's enforcement efforts, are the lowest they have 
been in a decade. Is that correct?
    Ms. Bodine. I believe so, yes.
    Ms. DeGette. Yes, OK, the inspections are the lowest.
    So moving on, another measurement of enforcement activity 
is civil penalties, which are monetary assessments paid by a 
regulated entity because of a violation. Is that generally a 
good description of the monetary penalties?
    Ms. Bodine. I wouldn't say that it was a good measure of 
enforcement results and I believe they go up and down.
    Ms. DeGette. OK but here is what I asked you: Monetary 
assessments are paid by a regulated entity because of a 
violation.
    Ms. Bodine. Yes, that is correct.
    Ms. DeGette. OK. Now, EPA's Enforcement and Compliance 
annual results for fiscal year 2018 indicate that the EPA 
obtained $69.47 million in administrative and civil judicial 
penalties. Is that correct?
    Ms. Bodine. I believe that is right.
    Ms. DeGette. And according to a February 8th Washington 
Post report, the $69 million in civil penalties represents the 
lowest in nearly a quarter-century. Is that factually accurate?
    Ms. Bodine. I believe that it is.
    Ms. DeGette. OK. Now in your testimony, you say the State 
of California and the EPA secured a civil--and I think Mr. 
Walden mentioned this, too, secured a civil penalty of $305 
million for Clean Air Act violations against Fiat Chrysler. Is 
that right?
    Ms. Bodine. Yes.
    Ms. DeGette. Now that case was initiated during the Obama 
administration. Is that correct?
    Ms. Bodine. There was a notice of violation, I believe it 
was, in January of 2017.
    Ms. DeGette. But it was initiated under the Obama 
administration.
    Ms. Bodine. So a notice of violation is not formal 
enforcement action.
    Ms. DeGette. OK. Now, so I didn't ask you about a formal 
enforcement action.
    Ms. Bodine. Well----
    Ms. DeGette. The investigation was initiated during the 
Obama administration.
    Ms. Bodine. The investigation was, yes.
    Ms. DeGette. Thank you.
    Now, while I appreciate the EPA has brought the important 
case to a resolution, I continue to be worried that the 2019 
numbers will reflect--I wonder if they will reflect civil 
penalties against a large variety of polluters, in other words, 
that we won't just have one penalty in this year.
    So let me ask you the Christian Science Monitor reports 
that for fiscal year 2018 the number of civil cases initiated 
by the Agency was the lowest since 1982. Is that correct?
    Ms. Bodine. I have no reason to believe it isn't. So I am 
not going----
    Ms. DeGette. OK. And also, the number of cases referred to 
the Department of Justice were the lowest since 1976. Is that 
correct?
    Ms. Bodine. I don't have that number.
    Ms. DeGette. OK. Now do you have any reason to doubt that 
number or do you just not know it?
    Ms. Bodine. I would have to--I could respond for the 
record. I would----
    Ms. DeGette. That would be great.
    Ms. Bodine. Yes.
    Ms. DeGette. So it is just that you don't know the number.
    Ms. Bodine. Right.
    Ms. DeGette. OK. Now last year, the Trump administration 
proposed cutting the EPA's budget by almost 25 percent. 
Congress didn't go along with that but I wondered about--
wondering about what message this sends to the employees.
    Is it true that your office has lost nearly 17 percent of 
its workforce?
    Ms. Bodine. No, that is not true.
    Ms. DeGette. It is not? What is the status of the workforce 
at this point?
    Ms. Bodine. So I am talking about the headquarters staff, 
the OECA staff, our ceiling is in 2018 and hopefully in 2019 as 
well is 649. We currently have 607 people onboard. I think 
about nine or more are coming onboard in March.
    Ms. DeGette. OK.
    Ms. Bodine. I have authorized hiring to bring it up to the 
ceiling.
    Ms. DeGette. OK. I am sure some others will follow-up. And 
my time has expired but I really want to thank you for 
answering my questions.
    Ms. Bodine. Sure.
    Ms. DeGette. The Chair now recognizes the ranking member.
    Mr. Guthrie. Thank you, Madam Chair, for the recognition. 
Thank you for being here, Ms. Bodine.
    Each year, OECA reports 12 different metrics to provide a 
high level of overview of the Agency's enforcement and 
compliance results for that year, including estimated 
environmental benefits, criminal and civil enforcement 
accomplishments, and Superfund accomplishments. In your 
opinion, can we look at just one of these metrics to determine 
the strength of EPA's enforcement and compliance program for 
any given year?
    Ms. Bodine. No. These results, which I certainly assured 
Senator Whitehouse I would continue to report, do not 
accurately reflect the great work that the staff is doing.
    Mr. Guthrie. So what are some of the limitations of the 
metrics that EPA reports on each year to demonstrate EPA's 
enforcement and compliance annual results? What are the 
shortcomings of the----
    Ms. Bodine. So what we report in our formal database are 
only formal actions and so it doesn't reflect the work that we 
have done cooperating with States. For example, when we go out 
and we do joint inspections, and we do that often because we 
are trying to help build State capacity, it doesn't reflect 
some of the work that we have done even in sophisticated States 
and cities.
    For example, in Pittsburgh, we did the assessment of the 
drinking water program. We are collaborating right now with the 
State of New Jersey looking at I think it is Newark and their 
pipes, their lead pipes. We do a lot of work that is not 
captured in these formal annual results.
    Mr. Guthrie. OK. So turning to combined civil, judicial, 
and administrative penalties figure, last year's number came in 
at $69 million, according to the fiscal year 2018 results. What 
is the current number for fiscal year 2019, understanding that 
we are only midway through the year?
    Ms. Bodine. I know you quoted it, or maybe Ranking Member 
Walden quoted it. I don't have the exact number. I do know that 
our Fiat Chrysler case, which we lodged, it has not even 
entered. We had, you know, with California over $305 million. 
We have been collecting other penalties but, yes, that number 
is going to be much higher in 2019.
    And may I also say that if you look at it, again, as 
trends, out of the past 11 years, 8 of the past 11 years the 
annual penalties were less than $250 million in 8 of the 11 
years. So you can't look at averages when you are looking at--
and suggest that that represents a trend.
    We did have 3 years of penalties over a billion and so, 
again, that makes the averages completely invalid from a 
statistical standpoint.
    Mr. Guthrie. OK. So if you look at the over $300 million 
that you quoted, that is including California's enforcement is 
what you were saying there?
    Ms. Bodine. Yes.
    Mr. Guthrie. So we already know that this year will be at 
least the fourth highest year for combined civil, judicial, and 
administrative penalties dating back to 1989.
    So in addition to formal enforcement actions, EPA engages 
in, you mentioned, other activities to promote compliance, such 
as State assists.
    Ms. Bodine. Right.
    Mr. Guthrie. Can you describe some of the activities that 
EPA does to promote compliance with the environmental laws 
regulations that are not accounted for in these annual metrics?
    Ms. Bodine. Sure. So one of the things that we are trying 
to do is encourage companies to get back into compliance 
quickly. So we revised our inspector guidance so that the 
inspectors would actually point out to the facilities what the 
problems were so they could fix them right away. We are also 
trying to--we have also told the staff that they need to get 
the inspection reports back to the facilities so they can fix 
their noncompliance and try and do that within 70 days. We are 
continuing to have our compliance assurance centers up and 
running.
    And we also have electronic tools that can help. For 
example, we have in the Clean Water Act area for the permit 
holders, they have to report electronically. And we can set up 
our electronic system, and we have, to automatically give them 
a notice if they have failed to submit a report and we are also 
developing a new tool where they can automatically get a notice 
if their discharge is above the permitted level.
    So we are building all these tools in to try and get 
compliance back more effectively, more efficiently, and more 
quickly.
    Mr. Guthrie. OK, thank you. The fiscal year 2018 
enforcement and compliance results recently released by EPA 
show that the number of environmental crime cases opened and 
the number of civil enforcement cases initiations have been 
gradually declining over the past 10 years. Can you explain why 
there has been a gradual decline in the number of civil and 
criminal cases opened each year?
    Ms. Bodine. So I don't have a good explanation for that. I 
do know that we opened--that there had been a decline in the 
new cases that we opened on the criminal side over 11 years and 
that we are now increasing. They are now increasing that again, 
which is wonderful.
    Mr. Guthrie. Is it just better compliance by people in the 
industries?
    Ms. Bodine. It is very hard to measure compliance. And so 
we don't have a good measure of compliance.
    But it is true that we are doing a much better job in 
targeting noncompliance so that goes to the inspection issue. 
So we don't need to take a lot of inspections to find--we can 
figure out where to expect noncompliance and target 
accordingly.
    Mr. Guthrie. OK, thank you. My time has expired. I 
appreciate your answers.
    I yield back.
    Ms. DeGette. The Chair now recognizes the full committee 
chairman, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Madam Chair, and I wanted to 
follow-up on kind of where you left off.
    Ms. Bodine, on the campaign trail, President Trump said he 
wanted to dramatically cut the EPA and leave only, I quote, 
``little tidbits'' left. Last year, the Trump administration's 
budget proposal seemed to try to make good on that threat by 
proposing a nearly 25 percent cut to the Agency. Now of course, 
Congress didn't go along with that, but that is what he 
threatened or that is what he suggested.
    And then in September, we had a Washington Post story that 
noted that, during the first 18 months of the Trump 
administration, nearly 1,600 workers left the EPA, while only 
400 were hired. And of course just a few weeks ago, your staff 
informed our committee that your office has lost in excess of 
130 enforcement staff since January of 2017.
    Now, I know you have said that you authorized to bring it 
back but how are you going to go about that? I mean do you 
intend to replace the roughly 130 staff? And you know what is 
your timetable? How are you going to do that?
    I guess I am kind of wondering if it is really going to 
happen. So tell us how it is going to happen and when.
    Ms. Bodine. So I can only hire up to the FTE ceiling that 
Congress has provided. And that, again, I believe we have the 
2018 bill where we had a ceiling of the 649 I believe----
    Mr. Pallone. Well, let me just interrupt you because of 
lack of time.
    I know you have said you intend to do this. What I would 
like to know is what the timetable is to actually accomplish 
the goal of reaching this authorized amount.
    Ms. Bodine. So our personnel processes are working as 
quickly as possible. When I say I authorized, that means the 
human resources process is underway. That is what that means.
    Mr. Pallone. And how long is it going to take? What is your 
timetable?
    Ms. Bodine. Can I get back to you on that? Because we are 
trying. As an Agency, we are trying to speed up that timetable, 
and so let me--may I get back to you on that for the record 
about what our----
    Mr. Pallone. Yes, but give me like a timetable when this is 
going to happen.
    Ms. Bodine. Well, the one I am most familiar with is 
actually bringing on the criminal investigators, which takes a 
very long time because of background checks.
    Mr. Pallone. With the Chair's permission, you can provide 
this in writing.
    Ms. Bodine. OK.
    Mr. Pallone. We would like some details.
    Ms. Bodine. OK.
    Mr. Pallone. Now I also wanted to talk about the EPA's 
regional enforcement workforce because, of course, you have ten 
regional offices across the country and you know a substantial 
amount of the enforcement work occurs at that regional level. 
How many regional enforcement staff have left the Agency since 
January of 2017 and how many have been hired?
    Ms. Bodine. I don't have that number. I would have to 
provide it for the record.
    Mr. Pallone. All right.
    Ms. Bodine. I do know the regions are hiring in the 
enforcement space as well.
    Mr. Pallone. Well this is just as important, right?
    Ms. Bodine. Right.
    Mr. Pallone. If you could get back to us----
    Ms. Bodine. Yes.
    Mr. Pallone [continuing]. I guess with the permission of 
the Chair and tell us how many you have lost, how many you have 
hired, and if you intend to make up that difference by 
replacing them, you know, what the timetable is for that as 
well.
    Ms. Bodine. Within the congressionally authorized FTE 
ceiling.
    Mr. Pallone. OK. Now, the other thing I wanted to ask you 
is I made a statement during my opening. I said that it appears 
that the Trump EPA is relying on industry to voluntarily come 
forward and disclose when they are not in compliance. What is 
your response to that? Would you agree that you do have an 
effort to have them voluntarily come forward and how do you go 
about that?
    Ms. Bodine. So EPA's had a self-audit policy in place since 
2000. In 2008, we expanded that with a new owner audit policy 
and we are now develop--we have developed another oil and gas 
new owner policy that is more tailored to that industry. It was 
based on a 2016 matter that was done in the previous 
administration with a new owner of oil and gas business.
    Mr. Pallone. Why should I believe that the worst offenders 
would voluntarily come forward? How is that? I mean you know 
human nature is such that bad actors don't voluntarily say they 
are bad. So how is that going to work? How does that work?
    Ms. Bodine. So I would not suggest that the audit policy is 
appropriate for the worst offenders. And I would also 
completely agree that you can't rely on self-disclosure alone, 
that you need an enforcement program to create the incentive.
    Mr. Pallone. But how is this of any value? I mean you are 
sort of saying it has been in place for years. Does it work? Do 
people voluntarily come forward?
    Ms. Bodine. Yes, the entities voluntarily come forward, 
self-disclose, and then certify that they have returned to 
compliance.
    Mr. Pallone. What is their incentive to do that?
    Ms. Bodine. Well, may I give you an example?
    Mr. Pallone. Sure.
    Ms. Bodine. So we absolutely do need to still keep 
inspecting and keep enforcement to create the very incentive. 
And if you voluntarily disclose and you don't come in to 
compliance or you don't have full compliance, then there is no 
shield to enforcement.
    We had a situation where a company they self-disclosed 
under a State audit program. They didn't catch all their 
violations. And we came in after and did an administrative 
enforcement action for the violations they did not self-
disclose. There was no shield from that State self-disclosure.
    I mean they didn't know they were out of compliance but it 
didn't matter. We came back for the ones they did not self-
disclose. But we came in, followed on, and did take an 
enforcement action for the actions that they didn't disclose.
    Mr. Pallone. I don't see how that is helpful but whatever.
    Thank you, Madam Chair.
    Ms. DeGette. The Chair recognizes the ranking member of the 
full committee, Mr. Walden.
    Mr. Walden. Thank you very much, Madam Chair. And to our 
witness, thank you for being here today and the work you and 
your team do around the country day in and day out to protect 
American consumers.
    Just for the record, I know in my testimony I said in 
fiscal year 2018 we saw a 47 percent increase in facility self-
disclosing violations over 2017----
    Ms. Bodine. Yes.
    Mr. Walden [continuing]. 532 entities at 1,500 facilities.
    So to follow-up on what Mr. Pallone said, from your 
perspective, why do companies come forward?
    Ms. Bodine. They come forward because if they self-disclose 
before we find it, so we haven't done the inspection, we 
haven't taken an action----
    Mr. Walden. Right.
    Ms. Bodine [continuing]. Then they will get relief on 
penalties.
    Mr. Walden. OK.
    Ms. Bodine. So we won't----
    Mr. Walden. So it is a carrot-and-stick approach.
    Ms. Bodine. Absolutely.
    Mr. Walden. And then if you do come in and find things they 
haven't disclosed, you have still got the stick----
    Ms. Bodine. Absolutely.
    Mr. Walden [continuing]. And you are using it.
    Ms. Bodine. Yes.
    Mr. Walden. Is that accurate?
    Ms. Bodine. That is accurate.
    Mr. Walden. OK, well that makes sense. And I know it seems 
to me, I may be off, but I think in the workforce or workplace 
safety, too, like OSHA rules, in Oregon we had something 
similar to that, where you could kind of disclose. Bring them 
in, they would do a review, and then you could comply and kind 
of not be in penalty because most employers want to do the 
right thing.
    Ms. Bodine. Yes, I will have to take your word for that.
    Mr. Walden. Yes. No, I understand. And there are some that 
don't and those are the ones we want you to go after.
    I think we can all agree the ultimate goal is to safeguard 
human health and protect the environment and compliance of 
EPA's environmental laws is necessary to achieve that.
    So what is OECA doing under your leadership to meet these 
goals and what changes, if any, have you made to EPA's 
enforcement or compliance priorities in order to do this?
    Ms. Bodine. Thank you for that question.
    So we are looking at our priorities because, as everyone I 
think here recognizes, the vast majority of the enforcement and 
inspections happen in the States. And we have very highly 
skilled staff and we have very good technical resources. So we 
want to be able to target our resources where we will have the 
most impact.
    So we have looked at what we call the National Compliance 
Initiatives and looked at where should we be focusing our 
resources. And right now, that is out for public comment. We 
had a Federal Register notice asking for the public to comment 
on where our priorities should be. And what that notice says is 
that we want to make sure that we are focusing on problems, the 
environmental problems. So whether it is trying to decrease the 
number of water segments that don't meet water quality 
standards, whether it is trying to decrease the number of 
nonattainment areas in Clean Air Act, as well as trying to 
focus on vulnerable populations around the country.
    And so we have initiatives already. For example, for air 
toxics, we have initiatives like glaring that gets at issues 
like the EFCs. We are talking. We are asking the public and 
States whether we should expand our initiatives to include a 
lead--children's exposure to lead initiative and we are asking 
about starting a drinking water initiative so we can work with 
States.
    And again, what we want to do is focus on these 
environmental problems.
    Mr. Walden. All right. And then I have certainly seen a 
change in the last couple of years when it came to the 
Superfund site cleanup, especially in the Portland Harbor 
Superfund case.
    Ms. Bodine. Yes.
    Mr. Walden. It has been dragging on for years, and years, 
and years. And this administration stepped in and said, ``Why 
don't we get about moving forward and actually cleaning it 
up''? And this is in Portland, not a known Trump red territory. 
And they were ecstatic that this administration, this EPA was 
ready to help clear out the regulatory hurdles, or whatever was 
there that was unnecessary, and move forward.
    Can you talk a little bit about how you help encourage 
contaminated site redevelopment and some of these issues?
    Ms. Bodine. Yes. On Portland, yes, I think everybody is in 
agreement that that needs to move forward. We need to get that 
cleanup moving.
    Mr. Walden. Right.
    Ms. Bodine. And on redevelopment, yes, we recognize that 
contaminated properties blight a community and that there are 
opportunities to bring back the community with redevelopment. 
And so we are using our enforcement tools to help that and that 
includes entering into agreements with what we call bona fide 
prospective purchasers, people who aren't liable. So we can 
give them comfort, we can give them protection, if they are 
going to come in and do a redevelopment.
    And we have had some great examples of that around the 
country. There was one out in Region 5 where McLouth Steel, 
they are coming in, it has been a blight on the community for 
years. And they are going to come in and tear down buildings 
that have been decrepit, again, to get rid of an eyesore and 
allow for redevelopment.
    So the shift is that we are willing to enter into these 
agreements.
    Mr. Walden. All right. I know this committee did great work 
in the last Congress approving a modernization of the 
Brownfields Law, bipartisan, I think it was unanimous out of 
Energy and Commerce and signed by President Trump. And so we 
want to be your partner in helping clean up these sites at all 
levels.
    Ms. Bodine. Yes, the BUILD Act. Thank you very much for 
that.
    Mr. Walden. Thank you and I yield back.
    Ms. DeGette. Thank you. The Chair now recognizes the 
gentleman from California, Mr. Ruiz, for 5 minutes.
    Mr. Ruiz. Thank you. Welcome, Ms. Bodine.
    I would like to better understand what EPA is doing to make 
sure changes in the enforcement program do not 
disproportionately harm low-income communities and communities 
of color. History shows us time and time again that Federal 
action and leadership are necessary to prevent environmental 
injustice.
    Ms. Bodine, would you agree that EPA needs to ensure 
equitable treatment and impact for communities of color and 
low-income communities when the Agency enforces Federal 
environmental laws and policies?
    Ms. Bodine. Yes, absolutely.
    Mr. Ruiz. Last year, EPA's own scientists released a report 
in the American Journal of Public Health, April 2018, 
confirming what many underserved, rural, and minority 
communities already knew, that low-income and people of color 
are disproportionately affected by air pollution. These 
findings joined an extensive body of research, which have found 
that both polluters and pollution are disproportionately 
located in low-income and minority communities.
    Would you agree that these findings make it all the more 
important to the health and safety of these communities that 
EPA effectively enforce against those polluters who break the 
law and illegally pollute?
    Ms. Bodine. So I absolutely agree with the statement. I 
haven't read the article but I agree with the statement you 
just made.
    Mr. Ruiz. Thank you.
    Ms. Bodine, on our second panel, we will hear from both Dr. 
Nelson and Mr. Schaeffer, who both raise important issues about 
the critical need for robust EPA enforcement in protecting 
minority and poor-resource communities who are often 
disproportionately close to polluting facilities. For those 
communities that live in close proximity to industrial sites 
that pose health risks, can you assure them that you will use 
all of EPA's enforcement tools to protect them?
    Ms. Bodine. We have made it a priority to address air 
toxics, which--and in talking about our National Compliance 
Initiatives, focusing on vulnerable populations.
    We also have as one of our priorities compliance with 
chemical safety regulations. And again, often you can have 
chemicals being used in--near----
    Mr. Ruiz. What do you define as vulnerable populations?
    Ms. Bodine. So there are both low-income and minority 
communities I believe with research----
    Mr. Ruiz. Because of the environmental injustices.
    Ms. Bodine [continuing]. And cumulative effects and 
location.
    Mr. Ruiz. OK. And due to resource, legal, or political 
constraints, some States may lack the will or ability to 
provide strong environmental protection.
    So can you please explain to me what extra enforcement 
measures EPA takes to ensure such communities are adequately 
protected if a State is not up to the task?
    Ms. Bodine. So in the guidance that we have set out to the 
regions interacting with States, we have been very clear that 
if it is an authorized program, we are going to look to the 
States to take action but if the State doesn't have the 
capability or the will to take action and we know there is a 
violation, then we absolutely should be stepping in to make 
sure we are getting compliance.
    Mr. Ruiz. Oftentimes, communities that are resource-poor 
that lack social capital do not have the capacity, the knowhow, 
or wherewithal to file complaints and to seek the EPA's 
assistance in mitigating or preventing some potential 
environmental injustice. What does the EPA do to provide those 
technical assistance to those low-income, rural, or minority 
communities?
    Ms. Bodine. So my program doesn't have technical assistance 
grants. The Superfund program does but we don't have those kind 
of community grants but----
    Mr. Ruiz. So currently, there is no--so Superfunds do.
    Ms. Bodine. Right.
    Mr. Ruiz. If they want to apply for a Superfund----
    Ms. Bodine. And there are environmental justice grants that 
are run by the Environmental Justice Program. But so we don't 
have enforcement grants to communities of the type that you are 
describing.
    Mr. Ruiz. So----
    Ms. Bodine. But we do have our initiatives----
    Mr. Ruiz. So oftentimes it is the communities that inform 
you of those violations.
    Ms. Bodine. Yes and we definitely pay very close attention. 
We have a tips and complaint line and we follow-up.
    Mr. Ruiz. So there should be probably some outreach to them 
and capacity training.
    It is a tragedy and true injustice that in America today 
the quality of your air and water and the potential exposure to 
hazardous and toxic substances is determined to a significant 
extent by your income, your ZIP code, and your race. So EPA can 
and should be doing more to protect disenfranchised 
communities. Would you agree?
    Ms. Bodine. I would agree. And I would agree that that is 
why we should be focusing on environmental problems when we say 
what should be our priorities, where should we direct the 
Federal resources.
    Mr. Ruiz. Thank you.
    Ms. DeGette. The Chair now recognizes the gentleman from 
West Virginia, Mr. McKinley.
    Mr. McKinley. Thank you, Madam Chairman.
    Interesting tone to this discussion so far and it just--I 
hope for the audience and those listening in that this is 
obviously this is some of the first steps of the election 
campaign of 2020.
    I was interested in the metrics that were being used as a 
measure of success of what your Agency has done, and it seems 
to be if someone wants to say that you are successful if you 
have more inspections and more fines. That seems to be the only 
measure that in this room is being used to find out whether you 
are successful, regardless of the outcome of what is happening. 
And I was looking for some analogies, thinking some analogies 
as I sat here listening to this line of rationale. And I think, 
even though it is not yours under the EPA but under maybe OSHA, 
is the number of coal mines that have been shut down all across 
America. As a result of the fact that there aren't coal mines, 
there aren't inspections. If we were to use that metric, it 
would mean that maybe OSHA is not doing its job because they 
are not doing as many inspections as they have done in previous 
years, or there aren't fines. Well, there aren't coal mines.
    And the same thing is appropriate for our coal-fired 
generating plants. We have had some 300 coal-fired generating 
plants shut down over the last 10 years. Therefore, you are 
going to have fewer inspections. You are going to have fewer 
fines as a result of that.
    But that is what people seem to be, on the other side of 
the aisle are saying that is the way we should be measuring 
this is is how many fines and inspections. But at the same 
time, we talk about voluntary compliance. And look what has 
happened. We didn't sign the Kyoto treaty. We didn't do the 
Paris Accord. We have withdrawn from that. But yet, their 
emissions have dropped.
    We looked at the SOx and NOx gases that you all were very 
much active in pursuing through the EPA. The SOx gases have 
dropped, since 1990, 92 percent; NOx gases, 84 percent down. 
Just in the last 10 years, the CO2 emissions have dropped by 
20-some percent. That is not--maybe it doesn't have as many 
fines and inspections but the result is we are accomplishing a 
cleaner environment doing it this way.
    So having said all that and looking at compliance, 
voluntary compliance and self-auditing, you mention in your 
report, your written report, that you had talked about MarkWest 
providing--they are using some innovative technology----
    Ms. Bodine. Right.
    Mr. McKinley [continuing]. To reduce their methane 
emissions and other volatile organic compounds. And they are 
sharing that information with other people, other institutions 
because we know methane is far worse than CO2 in what it does 
to the atmosphere.
    So can you elaborate a little bit about how we might 
improve on that or the role that technology might play in this?
    Ms. Bodine. Yes, some of what you are getting to, 
Congressman, is kind of the force amplifier of some of our 
settlements. And MarkWest is a great example because they have 
gas pipelines. You have a pigging operation. They didn't know 
that they had releases but they did and they developed new 
technology. And as part of their settlement, they have made it 
available to everyone in the industry with no license, cost 
whatsoever. So not only do we get the reductions from that 
company but also from other companies.
    Another example, Amazon, they were selling unregistered 
pesticides on their Web site in violation of FIFRA. And as part 
of that settlement, they agreed to do training. They agreed to 
do a lot of monitoring certification. And so not only is Amazon 
in compliance but it is a supply chain issue. Everyone in their 
supply chain would be in compliance.
    So again, you can't capture that but it is a force 
multiplier of some of the work we do.
    Mr. McKinley. So let me just close in the 30-some seconds I 
have left.
    Do you think it is more effective to look at the outcome, 
the results that we have had CO2 drop, SOx and NOx gases drop, 
or do you think the measure should be what they are talking 
about is the number of fines and the number of inspections? 
Which is the more effective metric?
    Ms. Bodine. Certainly the outcome.
    Mr. McKinley. Thank you. I yield back.
    Ms. DeGette. The Chair now recognizes the gentlelady from 
New Hampshire, Ms. Castor--Ms. Kuster for 5 minutes. We have 
Castor and Kuster.
    Ms. Kuster, 5 minutes.
    Ms. Kuster. Thank you very much and thank you for being 
with us.
    I just want to take exception to my colleague, Mr. 
McKinley, suggesting that this is politically motivated. The 
health and wellbeing of my constituents is not politically 
motivated and I think we can find common ground.
    But in New Hampshire, we have been dealing with the Saint-
Gobain site in Litchfield that is in my district, which was 
pollution by a PFAS, the per-and polyfluorinated compounds. And 
fortunately, we have had a settlement but we had to spend 
millions of dollars to connect $2.4 million, as well $900,000 
in loans, and $600,000 in grants to connect these households to 
safe drinking water because their wells were contaminated. It 
is not political. The wells didn't distinguish between the Rs 
and Ds. These are my constituents and I am trying to keep them 
safe.
    And my question for you, I have been disappointed by the 
EPA's PFAS Action Plan that was published last week because it 
doesn't seem to actually include much action. For instance, 
while EPA officials said that they intend to move forward to 
maximum containment levels for two PFAS chemicals, there was no 
commitment in the plan to initiating this regulatory process. 
And that means other communities are going to be left to rely 
on health advisories that may or may not keep my colleagues' 
constituents safe.
    What can your office do to help communities that are being 
poisoned by PFAS in the air, water, and soil? And I know you 
are putting a great deal of reliance on voluntary disclosure 
but what makes you think that companies are going to 
voluntarily take on this responsibility, when in fact that was 
not the case for us? They had to be caught in the act through 
testing and through local community efforts before the company 
came to the table to negotiate a settlement.
    Ms. Bodine. Thank you. First on the PFAS action plan that 
the Administrator announced, maybe it was a little over a week 
ago, he very clearly makes a commitment to initiate the 
regulatory process and establish----
    Ms. Kuster. And what is the time line for that?
    Ms. Bodine. That I don't know but I would have to take that 
back because that is not my program.
    Ms. Kuster. Because there is urgency to this. This PFAS is 
showing up in water, groundwater all across this country.
    Ms. Bodine. And can you tell me the name again of the site 
that you are talking about? Because I am familiar with the Air 
Force base but I am not----
    Ms. Kuster. It is Litchfield, New Hampshire, Saint-
Gobain's.
    Ms. Bodine. Oh, OK.
    Ms. Kuster. They used to make Teflon and pans, and it has 
gone into the water.
    Ms. Bodine. OK.
    Ms. Kuster. And we have hundreds of families. They were on 
bottled water for a long period of time.
    Ms. Bodine. Right.
    Ms. Kuster. And now, to the expense of millions of dollars, 
we have had to connect them to safe drinking water.
    Ms. Bodine. So one of the things that actually my office is 
involved in is developing a map, GIS map, where we would 
identify on the map all of the locations where we might expect 
PFAS contamination to be. Because remember when they did the 
unregulated contaminant monitoring for PFAS, it ended in--that 
was part of the 2015 round of monitoring, they found it above 
the health advisory in 1.3 percent of the public water systems 
and found it at any detection level in about 4 percent. But 
that doesn't capture communities with under 10,000 hookups.
    So we want the map so you can go and look has there been a 
firefighting center there, is there an industry where they have 
been using the PFAS. So again, for the very purpose that you 
have talked about, which is targeting so people can go then and 
do the testing.
    Ms. Kuster. Well let me ask you, is there any enforceable 
requirement to report a PFAS release? They know, the companies 
that use this technology, use these chemicals know. I mean they 
are well aware of the plume right under their facilities and 
their sites. In the end, Saint-Gobain's did come to the table 
and we were able to negotiate.
    But why don't you rely on them? Why do you do this whole--
--
    Ms. Bodine. So----
    Ms. Kuster [continuing]. Mapping and not just have a 
requirement, an enforceable requirement that the company has to 
come forward?
    Ms. Bodine. That is another action that is in the PFAS 
action plan, which is to add PFO and PFAS--and again, this is 
another office that would do this. It is a regulatory action--
but add it to the toxics release inventory, which then would 
mandate the reporting of release.
    Ms. Kuster. And what is the time line for that?
    Ms. Bodine. Again, I would have to answer for the record 
because it is not my office.
    Ms. Kuster. Well I just want to put on the record the 
urgency of families that are being exposed. And I want to thank 
the Moms Clean Air Action for being with us today and for 
families all across this country who care about their children 
and the quality. These are families that are drinking the water 
and it is not just Flint, Michigan. It is my district. It is 
every district across this country. And I urge you to bring 
some urgency to this.
    And with that, I yield back.
    Ms. DeGette. The Chair now recognizes the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Madam Chair.
    After reading through some of the testimony, I believe that 
we may hear some claims this morning in our next panel about 
the New Source Review Program. And I have been through this 
with the committee before but there are lots of stories like 
the ones out of my district where people are not pursuing 
improvements because they are afraid of tripping over the New 
Source Review Program and then having to spend a whole lot more 
money, so they don't do anything. And that has caused a lot of, 
I think, a lot of upgrades not to be done and some of which 
would have improved the environment.
    Now I know the Americans are paying more than necessary 
because of this and others things to improve air quality due to 
the overlapping air programs. About 13 programs overlap with 
the NSR, New Source Review, and I have legislation to fix all 
that but it is not likely to come up in the next couple of 
years, even though I think it is great, common sense reforms 
that will benefit the environment.
    Ms. Bodine, would you like to speak to the NSR Program, 
because you all are doing some things administratively similar 
to what my bill would do, and tell us what you are doing on 
that and how that relates to other programs that you all are 
working on?
    Ms. Bodine. So thank you, Congressman. The NSR Program is 
run out of the Air Office. And so they would establish the 
policies and the regulations. We obviously enforce.
    But I do want to mention that for a number of years there 
has been a National Compliance Initiative that deals with New 
Source Review. Under that as a result and today, and I think 
that has already been mentioned perhaps by Congressman McKinley 
that sulfur dioxide is down 90 percent in the power sector. 
Nitrogen oxide is down by 85 percent in the power sector since 
1997. And so when we look at where we should be focusing and 
where we have the opportunity to help communities and to help 
noncompliance, we are looking at other areas.
    And I would like to mention the fact that we are doing a 
lot of work on mobile sources now, and obviously that was the 
VW case, it was the Fiat Chrysler case but we also are dealing 
with it in terms of defeat devices and the aftermarket and the 
catalytic converters. I know that we got a letter from 
Congressman Guthrie, Congressman McKinley, and two of your 
colleagues about the catalytic converters and we are changing 
our tampering policy. We expect to roll that out pretty 
shortly.
    And the estimate that I have been given is that the State 
of California expects that by changing our policy and 
encouraging better performing catalytic converters, we can get 
rid of 85,000 tons per year of NOx nationwide, again, which is 
going to help with ozone nonattainment. It is NOx. It could 
help with the deposition of nitrogen.
    Mr. Griffith. That wouldn't necessarily show up in these 
stats that have been thrown around this morning because----
    Ms. Bodine. It would not.
    Mr. Griffith [continuing]. You are dealing with sometimes 
individuals who are doing things they are not supposed to be 
doing as opposed to companies.
    Ms. Bodine. Yes, you are right. Changing our tampering 
policy will not show and to get these kinds of reductions will 
not show up in our results.
    Mr. Griffith. And you have been working with the States a 
lot to make sure that they do because the States do a lot of 
the enforcement. Isn't that correct?
    Ms. Bodine. Yes, that is true.
    Mr. Griffith. And isn't your goal to move this to the 
States? Can you give us some idea of how you have been doing 
things with the States and what inefficient duplications you 
have seen with the State programs?
    Ms. Bodine. So a couple of the Members here mentioned the 
ECOS Working Group. So we did hear at the very beginning when--
--
    Mr. Griffith. For the folks back home, that would be the 
Environmental Council of States.
    Ms. Bodine. Thank you. Thank you. I apologize for that.
    Mr. Griffith. That is all right.
    Ms. Bodine [continuing]. Who represent the State 
commissioners and they were complaining that EPA would show up 
in their State without even telling them, taking either 
inspection or enforcement action without even telling them, 
even at a facility that the State perhaps had just inspected.
    And so what we have said to the regions is look, you need 
to be working in partnership with States. You need to do work 
planning together. Everyone has finite resources. You need to 
divide up the universe. We absolutely need a compliance 
assurance presence. We need inspections. But we should be 
working collaboratively so that if the State is doing it, we 
don't need to be doing it because that would be wasteful.
    Mr. Griffith. Right.
    Ms. Bodine. If the State needs to get training and capacity 
building, then we should be going out with them and providing 
that training.
    Mr. Griffith. And you all are obviously monitoring what the 
States are doing so that you can make sure that somebody is 
covering it. Isn't that correct, yes or no? I am running out of 
time. Yes or no?
    Ms. Bodine. Yes.
    Mr. Griffith. All right. And since you have been there, 
have you all intervened in any States where they aren't doing 
what they are supposed to do and haven't done the inspections 
properly or something?
    Ms. Bodine. So we have two examples where we--well, we have 
leaned heavily on States to take action and they have. So yes, 
we do have examples of that.
    Mr. Griffith. All right.
    Ms. Bodine. But then at the end of the day, the State 
finally did take the action and we didn't have to. And all that 
work doesn't show up in our results either.
    Mr. Griffith. In your data, OK.
    I yield back.
    Ms. DeGette. The gentleman yields back.
    The Chair now recognizes the gentlelady from Florida, Ms. 
Castor, for 5 minutes.
    Ms. Castor. Thank you very much.
    Ms. Bodine, I would like to spend the next few minutes 
talking to you about EPA civil case initiation. Civil 
enforcement at the EPA is a tool that you use to hold polluters 
accountable for violating Federal environmental laws and to 
deter future bad actors. Where EPA identifies a significant 
violation and determines that Federal enforcement is 
appropriate, the Agency may start an enforcement case. Is that 
generally correct?
    Ms. Bodine. Yes.
    Ms. Castor. OK. Ms. Bodine, EPA's fiscal year 2018 
enforcement and compliance numbers, according to your own 
numbers, indicate that the civil case initiations last year 
were at their lowest point in a decade, just over 1800.
    To add to that, a watchdog group recently reported that 
civil enforcement case initiations last year were lower than 
any year going back to 1982. That would mean civil case 
initiations may be at the lowest level in 36 years.
    What is your explanation for that that we are at the--EPA 
is at its lowest level of civil case initiations in 36 years?
    Ms. Bodine. So Congresswoman Castor, as I had pointed out 
earlier, that is a narrow slice of the work that we do. It is 
Federal formal enforcement case initiations. And so it doesn't 
capture the work that we are doing with States, where we may 
develop a case and they may take it over. It doesn't capture 
the facilities that are getting back into compliance after 
self-disclosing.
    So it is important and I would absolutely agree that we 
need to maintain enforcement presence but I would not say that 
the number of cases is reflective of that. And----
    Ms. Castor. Now your predecessor did not agree. Cynthia 
Giles, who preceded you as head of EPA's Enforcement Office, 
was very recently quoted in a press report saying EPA is trying 
to convince media and the public that EPA is still doing its 
job on enforcement, despite all the reports showing that isn't 
the case.
    So I think it is fairly clear EPA is not doing the job that 
it should. And so, taking your predecessor's point, as it 
relates to case initiations, how can you claim that the EPA is 
in fact going after polluters, given the decline? You said it 
is a narrow piece but, wow, 36 years, a 10-year decline that 
took a hit as the Trump administration came into the Executive 
Branch. I am having a hard time seeing how you claim otherwise.
    Ms. Bodine. So I am sorry that you feel that way. I know 
that the staff are working very hard in developing cases, and 
bringing cases, and that we are trying to target our resources 
where we have----
    Ms. Castor. Here is why it is important because lax 
enforcement sends the wrong message to industry and polluters. 
And I have a very hard time understanding how the public and 
the regulated community are supposed to have confidence in EPA 
when you are not enforcing America's bedrock environmental 
laws, when they see that an Agency has initiated the lowest 
amount of cases in what appears to be three decades.
    And did I understand your answer? Did you testify in a 
previous answer that we have a low--EPA is initiating a fewer 
number of enforcement cases because there are fewer bad actors?
    Ms. Bodine. I didn't say that.
    Ms. Castor. OK.
    Chairwoman DeGette, I am very concerned about this. They 
are not going to be able to deter bad actors. These are 
extraordinarily low numbers. It really appears to me that the 
Trump administration and the EPA, which is supposed to be the 
guardian of the public health, is elevating polluter profits 
over the public health. This is at a time when they are also 
rolling back critically important environmental and public 
health protections.
    What you do here by not enforcing the law is you further 
compound the problem and it is an abdication of your 
responsibilities.
    Ms. DeGette. Will the gentlelady yield?
    Ms. Castor. I yield.
    Ms. DeGette. Ms. Bodine, so you had said to Ms. Castor that 
the number of enforcement actions filed at the Federal level is 
just a narrow slice. Do you know how many additional cases were 
filed at the State level, then, with EPA assistance? Did that 
number go up dramatically in the last 2 years?
    Ms. Bodine. So we haven't started formally tracking State 
assists. We have asked the regions to track their State 
assists. So I have some data on that, which I can give to you 
for the record but it wasn't tracked before----
    Ms. DeGette. So you don't----
    Ms. Bodine [continuing]. What we are calling State assists.
    Ms. DeGette. Right. So you don't really know if the number 
of State cases went up. You are just suspecting they might 
have.
    Ms. Bodine. The States report some of their cases to us in 
our reporting system and we can provide you with that data. I 
don't have all of their data. The----
    Ms. DeGette. OK, thank you very much.
    Ms. Bodine. OK.
    Ms. DeGette. And Ms. Castor, thank you for letting me use 
the rest of your time, which has expired.
    I am now going to recognize Mr. Duncan from South Carolina 
for 5 minutes.
    Mr. Duncan. Thank you, Madam Chair.
    In my State, one of my communities has a four-lane highway 
running through it. It is not an interstate highway but they 
were requesting an intersection, an interchange, off-ramps to 
create a new industrial area and the county was under a 
nonattainment order from the EPA. Very little industry in that 
county in Upstate South Carolina that has emissions issues. 
Very little. And very little traffic. It is not an interstate 
highway on this four-lane but yet they were denied the ability 
to put in that interchange.
    And when we started looking at it, the EPA under the Obama 
administration had monitors in the county for air quality. And 
it was very apparent that the emissions or what was affecting 
this county was coming from not another county but another 
State, Tennessee primarily, westerly winds coming over the 
mountains, settling in Pickens County, South Carolina.
    So there is an issue of where we put these monitors for a 
lot of different things, whether it is heat sensors or whether 
it is air quality sensors. Those are issues that may affect 
other Members' communities and I just wanted to raise awareness 
of that.
    I want to jump to a particular type of case, those being 
the Clean Air Act nonattainment cases. The oil and gas new 
owner audit program has one interesting approach that the EPA 
is taking to reduce nonattainment. Can you tell us more about 
this program and other actions EPA has taken to reduce the 
Clean Air Act nonattainment?
    Ms. Bodine. Yes, thank you. In the oil and gas sector, you 
can have leaks from tanks. There can be leaks from wells. The 
new owner self-disclosure program encourages a new owner of 
these facilities to do their own inspection, and discover their 
own violations, and then disclose them, come into compliance, 
and then they would have no penalties because they are the new 
owner. They weren't responsible for it. And we have seen a lot 
of companies come in under our new owner program because of 
that incentive. They are starting fresh. And it has been very 
valuable.
    Again, for the oil and gas sector, it started from a 
settlement that was begun in 2016 but then recognized that that 
could be a model that could be used more broadly. And so it is 
a great opportunity to again get compliance and let the new 
owner start fresh.
    Mr. Duncan. I would say that is a cost savings for the EPA 
and ultimately, the taxpayer.
    Ms. Bodine. Yes.
    Mr. Duncan. To follow up, there has been criticism on the 
reduction of the size of the OECA office. I have been 
supportive of this administration's effort to peel back some of 
the layers of bureaucracy that have embedded themselves in the 
Agency. When the EPA is inefficient, they are holding up 
capital. How does this new owner audit program capitalize on 
the resources of the EPA while still reducing nonattainment.
    Ms. Bodine. Well if the new owner is coming in, then you 
are right, we don't have to expend our resources then going out 
and finding them. We don't have to expend our resources 
bringing a case against them. Again, it is far more efficient 
and gets compliance more quickly.
    Mr. Duncan. And you can focus those resources on other 
areas that----
    Ms. Bodine. On vulnerable populations, on chemical risk 
safety issues, our other National Compliance Initiatives.
    Mr. Duncan. Yes, thanks for being here.
    Madam Chair, I yield back.
    Ms. DeGette. The gentleman yields back. The Chair now 
recognizes the gentleman from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Madam Chair. Thank you, Ms. 
Bodine, for being here.
    I just want to go back on an exchange you had a moment ago 
because you suggested--you seemed to suggest that the reduction 
in civil penalties and other things from an enforcement 
standpoint at the Federal level has maybe been replaced by 
States being more aggressive on that front. Did you say 
something to that effect?
    Ms. Bodine. I said that we work--that most of the 
activities are taking place at the State level, and that has 
always been true----
    Mr. Sarbanes. Yes.
    Ms. Bodine [continuing]. And that we are trying--we are 
working with States and States are more sophisticated, and we 
are building State capacity if they have lost folks and----
    Mr. Sarbanes. Are you aware that the State fines have also 
diminished over the last couple of years? When you look at the 
record, it shows that between '06 and 2016 the penalties at the 
State level were averaging about $91 million a year, but in 
2017 they were $38 million, and in 2018 they were $59 million. 
A lot of these State agencies are not resourced in a way that 
can make up for lack of enforcement at the Federal level. So it 
seems to be diminishing on both fronts.
    Ms. Bodine. I think I will say what I have said in response 
to other questions but I don't believe penalties are a good 
measure of enforcement. Penalties are important for deterrence 
but that is not a measure of compliance. And you will see in 
the data that we have presented, because we go back 10 years, 
that penalties go up and down dramatically and, in fact, at the 
Federal level they were below $250 million for 8 out of the 
last 10 years.
    Mr. Sarbanes. Well, it seems many, if not all, of the 
indicators which we have at our disposal to judge whether 
enforcement is happening at the levels it should or not seem to 
be going in the wrong direction, whether you look at the State 
efforts or you look at the Federal efforts. To me that would 
suggest that the Federal Government needs to step up even more 
and occupy this space in an aggressive and responsible way.
    But let me talk to you about injunctive relief because that 
is an important tool that you have as part of your enforcement 
kit of measures that you can undertake. And this is a way that 
the EPA can insist on industry players and others coming into 
compliance.
    So we understand from your staff briefing recently that EPA 
enforcement actions resulted in almost $4 billion, $3.95 
billion in compliance costs in fiscal year 2018. Does that 
sound about right to you?
    Ms. Bodine. Yes, I am reading it off the chart right here.
    Mr. Sarbanes. OK, you have got it right there.
    All right. And according to a January 24th Washington Post 
article, the compliance costs for the 2 decades before the 
Trump administration roughly averaged $7.8 billion per year, 
which is nearly double the amount that the EPA obtained in 
fiscal year 2018. Are those numbers correct, as far as you 
know?
    Ms. Bodine. I don't believe that you can average these 
numbers. I mean, you have the chart also. You can see that you 
have very, very high----
    Mr. Sarbanes. But in any event, they were significantly 
higher.
    And then in a recent article, I just wanted to note in The 
Christian Science Monitor, your predecessor, Cynthia Giles, was 
quoted as saying, ``Injunctive relief tells you whether the EPA 
is taking on the tough, very hard, big pollution cases'' and 
``This data shows the Trump EPA is not doing that.''
    Now, I get that the compliance injunctive relief numbers 
can vary from year to year, but these are pretty low numbers, 
some of the lowest we have seen in a long time. Is Ms. Giles 
wrong when she says injunctive relief is a good indicator to 
evaluate whether an administration is going after the worst 
polluters, in your view?
    Ms. Bodine. I think that former Assistant Administrator 
Giles knows very well that, when you are talking about these 
really big cases, it takes a lot of years to develop and 
complete those cases. So if I----
    Mr. Sarbanes. Well let me grab onto that because I am going 
to run out of time, that idea of taking a long time.
    Ms. Bodine. Right.
    Mr. Sarbanes. Because that $3.95 billion figure for 2018 
apparently, according to the Christian Science Monitor article, 
40 percent of that total almost is from cases that were settled 
by the EPA under President Obama. So even that low number, that 
$3.95 billion low number, if you look at it in terms of what 
has actually been undertaken in this administration, it is much 
lower still because 40 percent of that is coming from the prior 
administration.
    Are you aware of those numbers? Can you tell me what the 
number is that comes from the previous administration?
    Ms. Bodine. So in our results, we count the injunctive 
relief in the year that the court enters it. And as well, you 
are not going to see numbers from cases that we initiated that 
would be big. Small cases, yes, but large cases, because it 
takes a long time, so you are going to see that later. So we 
are----
    Mr. Sarbanes. I get it. There is a timing issue. There is a 
snapshot issue.
    Ms. Bodine. Yes.
    Mr. Sarbanes. There is a range issue----
    Ms. Bodine. Yes, absolutely.
    Mr. Sarbanes [continuing]. And so forth. But in any event, 
I think there is plenty of evidence here that the mission you 
have of fair and effective enforcement of environmental laws, 
particularly using, as I was discussing here in the injunctive 
relief, is not being fulfilled based on the numbers that we are 
seeing.
    With that, I would yield back my time because I am over. 
Thank you.
    Ms. DeGette. The Chair now recognizes the gentlelady from 
New York, Ms. Clarke, for 5 minutes.
    Ms. Clarke. I thank our chairwoman and ranking member for 
hosting this hearing today.
    Ms. Bodine, I want to talk about budget because the fiscal 
year 2019 budget request called for nearly a 25 percent cut to 
the EPA. And to put that in perspective, if those cuts were 
enacted, they would push the EPA's budget to its lowest level 
since 1991.
    I would point out that compliance and enforcement 
activities are not spared from these proposed cuts. How would 
these proposals, if they were enacted, have impacted 
enforcement activities?
    Ms. Bodine. I don't know. We would be using the resources 
that Congress gives us as effectively and as efficiently as we 
can. And we would be focusing on the largest cases.
    We do still take a lot of very small cases. A large 
percentage of these cases, conclusions that have been discussed 
today, are still very small cases. And so we would focus on the 
most important cases and we would focus on making sure that we 
were providing assistance and training to States.
    Ms. Clarke. So we have been talking about sort of the 
decline in what we can recognize as enforcement activity. Are 
you saying that there would be no correlation in bringing 
action between a reduction in your budget and the fact that you 
are at a 30-year low in that enforcement?
    Ms. Bodine. So what I said was that we would be further 
focused on the most important actions. I didn't say it would 
have no impact. But in terms of if we were not going to be 
taking an action, it would definitely be only in situations 
where there wasn't an immediate public health or environmental 
threat, situations where we knew the State was already dealing 
with the issue.
    So again, we would be very strategic.
    Ms. Clarke. So Ms. Bodine, even though Congress prevented 
those cuts from being enacted, I am deeply concerned that 
certain damage was done. I am concerned that those proposed 
cuts sent a signal to regulated communities and EPA employees 
that the administration doesn't take its responsibility to 
enforce environmental laws seriously.
    Are you concerned that the previously proposed budget cuts 
to EPA sends a message to polluters and EPA staff that the 
Agency doesn't take environmental enforcement seriously?
    Ms. Bodine. As I mentioned in my opening statement, I have 
gone around to the regions, I have talked to my staff to make 
sure that they know that we do very much value the work that we 
do and that enforcement is incredibly important.
    Ms. Clarke. So I want to shift gears just a tad bit. Two-
thirds--I am from New York--of New Yorkers regularly breathe in 
unhealthy air due to smog. That is why New York State and City 
has actually sued the EPA last month regarding its failure to 
enforce the Clean Air Act.
    The quote, ``good neighbor,'' end quote, provision of the 
Act requires the EPA to police air pollution in States not 
living up to Federal standards so it doesn't blow downwind to 
States like mine. This lawsuits results from the EPA's decision 
to reverse its prior finding that ozone pollution should be 
subject to this provision.
    Why did the EPA take this action, which harms the health of 
New Yorkers?
    Ms. Bodine. So, congresswoman, I don't actually have any 
background information on that. That would be a regulation that 
would come out of the Air Office.
    Ms. Clarke. OK and so you wouldn't be looking into a 
lawsuit that has implications around enforcement and 
regulation.
    Ms. Bodine. Our General Counsel's Office would be managing 
that lawsuit. My office would not have anything to do with it.
    Ms. Clarke. Very well. Well then let me share just this one 
last question, since I have a short amount of time.
    Will next year's budget propose similar draconian 
reductions for EPA like last year's proposal?
    Ms. Bodine. I don't know.
    Ms. Clarke. You don't know. Will you be advocating for a 
more robust budget?
    Ms. Bodine. So I believe the President's budget is going to 
come out in March, next month.
    Ms. Clarke. Absolutely.
    Ms. Bodine. So the----
    Ms. Clarke. Well, if the past precedent is prologue, what 
are your feelings about that, given what has all been revealed 
here today?
    Ms. Bodine. I support the President's budget.
    Ms. Clarke. Oh, very well.
    I yield back, Madam Chair.
    Ms. DeGette. The Chair now recognizes the gentleman from 
New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Chairwoman DeGette, for hosting this 
hearing and welcome, Administrator Bodine.
    Ms. Bodine. Thank you.
    Mr. Tonko. Civil penalties are an important enforcement 
tool at EPA. Civil penalties are monetary assessments paid by a 
regulated entity because of a violation or noncompliance. They 
are designed to recover the financial benefit a company has 
obtained by breaking the law and impose added cost to deter 
firms from breaking the law again in the future.
    So Administrator Bodine, would you agree that civil 
penalties are an important enforcement tool for EPA?
    Ms. Bodine. Yes. Yes, I do.
    Mr. Tonko. And according to EPA's annual enforcement report 
for fiscal year 2018, EPA obtained just $69.4 million in 
Federal administrative and civil judicial penalties.
    A recently released report cited by The Washington Post 
states that this is the lowest amount of civil penalties 
recovered since the Office of Enforcement and Compliance 
Assurance was established back in 1994. Even excluding the huge 
BP penalty, The Washington Post reports, and I quote, the Trump 
administration's civil monetary penalties ``last year 
represented a roughly 55 percent drop from the annual 
average.'' In fact, according to a February 8th Washington Post 
report, the $69 million in civil penalties leveled by EPA 
``represents the lowest in nearly a quarter-century.''
    So Administrator Bodine, is that accurate?
    Ms. Bodine. I can look at the--I know what our results say. 
I don't have the data that you have. But I also would note that 
penalties go up and down and that----
    Mr. Tonko. OK but could you get back to us if it is 
accurate?
    Ms. Bodine. Certainly.
    Mr. Tonko. Thank you.
    In the roughly 25-year history of the Office of Enforcement 
and Compliance Assurance, has the amount of civil penalties 
leveled by EPA ever been this low?
    Ms. Bodine. In the 11 years of data I have in front of me, 
no, but I don't have it back further.
    Mr. Tonko. OK, thank you.
    And Ms. Bodine, some have suggested that annual total 
penalties can be strongly influenced by the presence of one or 
two large cases. To illustrate this point, your staff provided 
to the committee analysis which shows annual results for civil 
penalties after removing two large cases, that being BP and VW.
    In your testimony, you had mentioned that for 2019, the 
State of California and EPA secured a civil penalty of some 
$305 million. So my question, Administrator Bodine: What is the 
amount of civil penalties for fiscal year 2019 to date, if you 
exclude the large Fiat Chrysler penalty?
    I have this chart that was provided by your Agency that 
shows this huge spike with the Fiat Chrysler penalty. This has 
been adjusted for BP and VW. So I have heard all the talk about 
spikes, and peaks, and valleys. I have heard about the 
averaging throughout the years. But in a 30-year span, if you 
take this out, what is the amount of civil penalties for fiscal 
year 2019 to date?
    Ms. Bodine. I am going to have to provide that for the 
record.
    Mr. Tonko. Yes, that is very important information, because 
that spike looks like the whole picture for 2019.
    Again, Ms. Bodine, on the second panel, Eric Schaeffer, who 
spent 12 years at the EPA as the Director of the Agency's 
Office of Civil Enforcement, will testify that EPA's 
enforcement results for 2018 fiscal year were historically low. 
His testimony indicates, and I quote, ``the number of 
inspections and investigations, civil cases either referred to 
the Justice Department for prosecution or concluded with a 
consent decree, criminal cases opened, and defendants charged 
with environmental crimes fell to their lowest levels since at 
least 2001.
    ``Looked at another way, inspections and investigations in 
the last year were 40 percent below their average level during 
the last two administrations. EPA referred 123 cases to the 
Justice Department in 2018, compared to an average of 211 per 
year under President Obama, and 304 under President Bush.''
    Ms. Bodine, that certainly seems like a decrease in 
enforcement activities. How do you respond to that?
    Ms. Bodine. You can't look at average when you are talking 
about enforcement. We don't set quotas. We don't say we are 
going to ask the staff to reach an average number of penalties, 
and you know you have get $500 million in penalties a year, and 
that you have to go out and increase penalties to reach that 
number. We don't say you have to reach an average number of 
cases. And again, we want them to be very judicious and 
strategic and put the resources where it matters.
    We do, however, try and set targets for inspections because 
we absolutely agree that we need to be out there. We need to be 
inspecting for compliance. We need to have the enforcement 
presence out there.
    Mr. Tonko. I am just concerned that EPA has taken the 
environmental cop off the beat and will go on polluting without 
fear of repercussions.
    So with that, I thank you for your time.
    Ms. Bodine. Thank you.
    Mr. Tonko. I yield back.
    Ms. DeGette. The Chair now recognizes the gentleman from 
Oklahoma, Mr. Mullin, for 5 minutes.
    Mr. Mullin. Thank you, Madam Chairwoman.
    I ask unanimous consent to include a letter from Senator 
Unruh regarding the EPA enforcement into the record.
    Ms. DeGette. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Mullin. Thank you.
    Ma'am, thank you so much for being here. And I have got to 
tell you, coming from a business owner that owns an 
environmental company, it is refreshing to have an EPA now that 
is willing to work with us. We have DEQ, Department of 
Environmental Quality inside Oklahoma that obviously partners 
with the EPA. And underneath the last administration, it felt 
like every time the EPA showed up at a job site or a place of 
business, they were there just to look at ways to write fines. 
They were not there trying to work with the industry, trying to 
improve it. And in fact, if you even questioned it, you 
typically got a supervisor that came back with more penalties. 
And so it was to the point where you couldn't work with the 
Agency anymore.
    So the idea that you are bringing it back to working with 
industry, I, personally, appreciate it and I can tell you 
industries appreciate it, too.
    It has always been in my mindset that the government is 
supposed to create an environment for the economy to thrive, to 
allow the industry to work with best practices. And I feel like 
that that is coming back around to the EPA. So thank you so 
much.
    I have got a couple of questions here. My understanding is 
that OECA is trying to use the right tools to focus on major, 
even criminal compliance issues. Is that correct?
    Ms. Bodine. Yes, that is correct.
    Mr. Mullin. So if that is accurate, then would you 
attribute the new efficiencies to the uptick in criminal 
enforcement cases open in fiscal year 2018?
    Ms. Bodine. I am not sure if it is an efficiency issue but 
we have certainly been very, very supportive of the criminal 
program. I am happy to see the number of cases that they have 
opened for investigation as well now.
    Mr. Mullin. What type of compliance issues do you think you 
are dealing with right now?
    Ms. Bodine. Across the country?
    Mr. Mullin. Just for the most. Just give me maybe the top 
three.
    Ms. Bodine. So we are concerned about, for example, the 
number of Clean Water Act permit holders that are in 
significant noncompliance with their permits. And so we are 
trying to work with States to get that number down.
    We are also concerned about drinking water and we are 
talking about developing a New National Compliance Initiative 
on drinking water because I think everyone around the country 
is concerned that we have noncompliance.
    You know we have cases underway but we also know that there 
are small systems out there that need help.
    Mr. Mullin. Are you having issues with discharge permits 
for like maybe municipalities?
    Ms. Bodine. So they are a big part of the universe that is 
in noncompliance with their permits that we track. And again, a 
lot municipalities that had both combined sewer overflows and 
sanitary sewer overflows, a lot of those are already under 
either an administrative order, a consent decree, or a permit 
to get them back into compliance.
    Mr. Mullin. Does that have to do with their treatment 
centers that are maybe outdated and they can't afford to put in 
new ones?
    Ms. Bodine. That can very much be the case. And when we 
deal with those issues, then we look at the time frame over 
which they would need to come back.
    Mr. Mullin. Let's say when they built it, they were 
compliant and then new standards have increased, which made 
them out of compliance, or is it because they have equipment 
that is down?
    Ms. Bodine. It is both.
    Mr. Mullin. It is both.
    Do you have enough Federal agents to enforce your criminal 
investigations?
    Ms. Bodine. So I have authorized the hiring to take us up 
to 164 agents. We don't have that number onboard right now. 
Again, it takes about 6 months to bring on an agent.
    Mr. Mullin. How many are you behind?
    Ms. Bodine. I think right now we have about 147----
    Mr. Mullin. One hundred and forty-seven.
    Mr. Burgess [continuing]. But we have a number of hires in 
the works. They have to go through a lot. They carry guns. They 
have to go through a lot of background checks.
    Mr. Mullin. So what is the time frame to be able to get 
them up to speed and have them----
    Ms. Bodine. Can I answer for the record? It takes a long 
time. It is not getting them up to speed. It is getting them 
onboarded. It is getting them hired.
    Mr. Mullin. Now, what is----
    Ms. Bodine. But, again, I authorized that back in June or 
July, and so we are working hard to get those folks on.
    Mr. Mullin. So what is the total number of vacancies you 
have?
    Ms. Bodine. Well, I believe--again, I have some people 
coming on in March.
    Mr. Mullin. OK.
    Ms. Bodine. They were supposed to come on in January, but 
they didn't because we were shut down. But they are coming on 
in March, and so I think today it is about 147. We are trying 
to get it up to 164, but I don't know how many are coming in 
within the next few weeks.
    Mr. Mullin. Real quick, one last question: Why do the EPA 
agents need to be carrying guns?
    Ms. Bodine. So they go out and they serve search warrants, 
and sometimes people resent the fact that they are in fact 
searching their facility. And we have had----
    Mr. Mullin. So it is for protection purposes.
    Ms. Bodine. Absolutely. We have had----
    Mr. Mullin. It is not enforcement, it is protection.
    Ms. Bodine. It is protection. We have had situations.
    Mr. Mullin. Right, well that was what I was hearing.
    Ms. Bodine. That is exactly what it is.
    Mr. Mullin. It is not for enforcement purposes.
    Ms. Bodine. No.
    Mr. Mullin. It is for self-protection.
    Ms. Bodine. It is absolutely for personal protection, yes.
    Mr. Mullin. OK, thank you so much. I appreciate it.
    Ms. Bodine. Yes.
    Mr. Mullin. I yield back.
    Ms. DeGette. The Chair now recognizes the gentleman from 
California, Mr. Peters, for 5 minutes.
    Mr. Peters. Thank you, Madam Chair, and thank you, Ms. 
Bodine, for being here with us.
    My first job after graduating college was working as an 
economist for the ToSCA section of the Office of Toxic 
Substances under ToSCA. And that drove me from being an 
economist to going to law school.
    And then as a lawyer, one of the first things I did was 
work on Superfund as an environmental lawyer after it was 
reauthorized in the mid-1980s. And I want to talk about that 
program for a few moments.
    The Superfund program is a critical public health program 
that has made an enormous difference in cleaning up dangerous 
contaminated sites across the country and there are a lot of 
effective tools and private enforcement but public enforcement, 
EPA enforcement staff still has a lot of responsibility for 
identifying responsible parties and ensuring that the 
appropriate people pay to get the cleanups done.
    In 2018, Superfund enforcement generated the lowest level 
of private party cleanup commitments in 10 years. Is that your 
understanding?
    Ms. Bodine. I will take your word for it. I don't have my 
Superfund slide in front of me but I can pull it out.
    Mr. Peters. OK. And also, I understand that the volume of 
contaminated soil and water to be cleaned up also dropped 
significantly in that time period. Is that also your 
understanding?
    Ms. Bodine. So I do know that the volume of hazardous 
waste--well, the volume of contaminated soil and water in 2018, 
I need my chart. I know that it was higher than it was in 2015, 
higher than it was in 2016. I believe it was less than 2017, 
however.
    Mr. Peters. OK. I am thinking over the last 10 years. That 
is my understanding.
    In any event, I don't think the need for cleanup has 
dissipated. The number of National Priorities List sites, NPL 
sites has remained consistent for years and the pace of 
cleanups has slowed markedly. Is it fair to attribute that to 
lesser enforcement? What do you attribute that to?
    Ms. Bodine. So I am not sure. I know that this 
administration we have been very focused on increasing the pace 
of cleanups in the Superfund program and that is by focusing 
management attention, making sure that we don't have logjams 
and that if private parties aren't stepping up, that we bring 
them to the table through the threat of enforcement.
    Mr. Peters. I guess the bottom line is that the number of 
NPL sites has not been reduced. Isn't that our goal to get 
these things cleaned up and off the list?
    Ms. Bodine. It is and, in fact, under this administration, 
we have had more deletions. I believe it was I think 22 sites 
were deleted from the NPL this past year, which is more than 
probably any--I would have to get the exact number but it is 
certainly a huge increase over prior years.
    Mr. Peters. What would be great is if I can ask you to 
follow-up, if you don't have these things in front of you.
    Ms. Bodine. Absolutely. Sure.
    Mr. Peters. Sometimes it is a little bit of a surprise. I 
would love to get those numbers from you on the cleanups.
    Ms. Bodine. Sure.
    Mr. Peters. The threat of enforcement carries particular 
weight in Superfund because the Agency has the authority to 
seek treble damages for cleanup costs from responsible parties. 
How often have you used the treble damage authority during your 
tenure, Ms. Bodine?
    Ms. Bodine. So these are 106 actions. I know that we have 
threatened them and then the private parties have come to the 
parties to the table in some cases that I have been briefed on. 
But I wouldn't know every instance and so I will have to get 
back because that would happen out in the region. So I will 
have to get back to you for the record on the number of 106 
orders we have issued.
    Mr. Peters. Would you be able to share which cases those 
were with us?
    Ms. Bodine. I believe those would be public.
    Mr. Peters. I would like to compare your threats to the 
results, if that is OK with you.
    Ms. Bodine. Let me take that back. I believe those are 
public. If we actually issued the order, then that would--I 
believe those are public.
    Mr. Peters. All right, thank you.
    I yield back.
    Ms. DeGette. The gentleman yields back.
    Ms. Bodine, this concludes your testimony but I did want to 
raise a couple things with you.
    Number one, several of the Members today asked you to 
supplement your answers.
    Ms. Bodine. Yes.
    Ms. DeGette. And we expect that in a timely fashion. I am 
sure you can do that. When do you think you can get that 
information to us?
    Ms. Bodine. That I don't know, but I understand completely 
the need to be responsive.
    Ms. DeGette. Thirty days, do you think? Well, we are going 
to hope for 30 days.
    Ms. Bodine. OK.
    Ms. DeGette. One of the reasons I ask is the majority has 
sent your office five letters requesting information and 
documents since the beginning of this Congress. And as a rule, 
we ask for 2 weeks. We know you can't always get that in the 2 
weeks, but we haven't gotten any of the information. So I would 
ask you to go back to your office and see if you can get 
responses to those five letters as well. Is that OK?
    Ms. Bodine. Yes.
    Ms. DeGette. Thanks.
    Just one last question, and then I will ask Mr. Guthrie if 
he has any last questions.
    In your response to Mr. Mullin, you said that you have a 
goal of increasing your number of criminal investigators to 
164.
    Ms. Bodine. Yes.
    Ms. DeGette. How many investigators is the EPA required to 
have under the law?
    Ms. Bodine. There isn't a----
    Ms. DeGette. There is no requirement.
    Ms. Bodine. There is no requirement.
    Ms. DeGette. OK, my staff says it is 200. So that is not 
accurate?
    Ms. Bodine. The, I believe, Pollution Prosecution Act of, 
what, 1990 said that by 1995 the number should be 200, and it 
was in 1995. But we don't have an ongoing obligation to 
maintain 200.
    Ms. DeGette. Under that Act.
    Ms. Bodine. Correct.
    Ms. DeGette. That is your interpretation of that Act.
    Ms. Bodine. Yes, that is correct.
    Ms. DeGette. OK, thank you.
    Mr. Guthrie, do you have any additional questions?
    Mr. Guthrie. No, thank you. I just want to thank you for 
coming to testify before us today. And I think there were 
several questions asked for timely responses to the questions, 
and I think that is appropriate. And I appreciate you coming 
before us today. Thank you.
    I yield back.
    Ms. DeGette. Thank you very much. With that you are 
dismissed, Ms. Bodine.
    And I would now ask the second panel witnesses to please 
come to the table.
    Thank you so much all for coming. I would now like to 
introduce our second panel of witnesses. OK, you guys are not 
sitting in the order on this, but I am going to introduce you 
in the order of this.
    Bruce Buckheit, who is an analyst and consultant and the 
former director of the Air Enforcement Division of the Office 
of Enforcement and Compliance Assurance; Dr. Bakeyah Nelson--is 
that right, Dr. Nelson, ``Bi-kay-uh''?--Executive Director of 
the Air Alliance Houston; Eric Schaeffer, the Executive 
Director of the Environmental Integrity Project; Dr. Chris 
Sellers, Professor of History and Director of Center for the 
Study of Inequality and Social Justice at Stony Brook 
University; Dr. Jay Shimshack, who is the Associate Professor 
of Public Policy and Economics, Frank Batten School of 
Leadership and Public Policy at the University of Virginia; and 
the Honorable Ronald J. Tenpas, a partner at Vinson and Elkins, 
former Assistant Attorney General, Environment and Natural 
Resources Division, U.S. Department of Justice.
    I want to thank all of you for appearing today and I am 
sure you are aware the committee is holding an investigative 
hearing and when we do so, we have a practice of taking 
testimony under oath.
    Does anyone have an objection to taking your testimony 
under oath? Let the record reflect the witnesses responded no.
    The Chair then advises you that under the rules of the 
House and the rules of the committee, you are entitled to be 
accompanied by counsel.
    Does anyone here desire to be accompanied by counsel today? 
No. Let the record reflect the witnesses have responded no.
    So if you would please rise and raise your right hand so 
you may be sworn in.
    [Witnesses sworn.]
    Ms. DeGette. You are now under oath and subject to the 
penalties set forth in Title 18 Section 1001 of the U.S. Code.
    So now the Chair will recognize the witnesses for 5 minutes 
for a summary of their written statements.
    In front of you is a microphone and a series of lights. The 
light will turn yellow when you have a minute left and red to 
indicate your time has expired.
    And I am going to have you testify in the order in which 
you are sitting. So, Mr. Schaeffer, we will start with you, and 
thank you so much. You have got 5 minutes.

STATEMENTS OF ERIC SCHAEFFER, EXECUTIVE DIRECTOR, ENVIRONMENTAL 
 INTEGRITY PROJECT; CHRIS SELLERS, PH.D., PROFESSOR OF HISTORY 
  AND DIRECTOR, CENTER FOR THE STUDY OF INEQUALITIES, SOCIAL 
 JUSTICE, AND POLICY, STONY BROOK UNIVERSITY, ON BEHALF OF THE 
    ENVIRONMENTAL DATA AND GOVERNANCE INITIATIVE; BRUCE C. 
    BUCKHEIT, ANALYST AND CONSULTANT, FORMER DIRECTOR, AIR 
  ENFORCEMENT DIVISION, OFFICE OF ENFORCEMENT AND COMPLIANCE 
 ASSURANCE, ENVIRONMENTAL PROTECTION AGENCY; JAY P. SHIMSHACK, 
  PH.D., ASSOCIATE PROFESSOR OF PUBLIC POLICY AND ECONOMICS, 
FRANK BATTEN SCHOOL OF LEADERSHIP AND PUBLIC POLICY, UNIVERSITY 
OF VIRGINIA; BAKEYAH S. NELSON, PH.D., EXECUTIVE DIRECTOR, AIR 
  ALLIANCE HOUSTON; AND RONALD J. TENPAS, PARTNER, VINSON AND 
ELKINS, LLP, FORMER ASSISTANT ATTORNEY GENERAL, ENVIRONMENT AND 
       NATURAL RESOURCES DIVISION, DEPARTMENT OF JUSTICE

                  STATEMENT OF ERIC SCHAEFFER

    Mr. Schaeffer. Thank you, Madam Chairman and Ranking Member 
Guthrie, for the opportunity to testify. I am Eric Schaeffer, 
Director of the Environmental Integrity Project, and I did 
spend time at the EPA as Director of the Civil Enforcement 
Program. And if I may, I would like to address some of the 
issues that came up in prior testimony and have my written 
statement be in the record.
    Ms. DeGette. Without objection.
    Mr. Schaeffer. Thank you.
    So to take some of the points that were discussed, I just 
want to make clear that EPA's enforcement program does not just 
measure penalties and fines. It has always, at least for 25 
years, measured enforcement outcomes. Those include the amount 
of pollution reduced through enforcement action and the amount 
of money spent on cleanup. And those measures are reported 
faithfully every year. They are also at historic lows in 2018. 
I believe the Chair made those points, but I just wanted to 
reinforce those outcome measures are also down.
    Also, I think it is important just to get back to basics 
and understand that enforcement protects people where they live 
and work, protects their health and environment where they live 
and work. So when a community is exposed to a blast of lead or 
a cloud of carcinogens from let's say a petrochemical plant, 
you really can't answer the problem by saying you know don't 
worry, sulfur dioxide emissions are down nationwide. They 
really want something done about what is going on in their 
neighborhood. That is enforcement work and I think it is 
important to just keep that in front of us.
    Next, EPA has had active programs to encourage voluntary 
compliance, including the disclosure and correction of 
violations for many, many years. They are important. They are 
necessary. They work in tandem with enforcement. It's not an 
either/or situation. And in fact, I think those voluntary 
efforts will start to shrink if enforcement starts to fall off.
    Looking at this issue maybe more philosophically, if you 
are a large refinery, let's say, or a large power plant, you 
aren't supposed to wait until the government comes calling to 
start complying with the law. So that kind of voluntary 
compliance is not what we should be talking about. It should be 
giving people incentives to get ahead of the game and stay in 
compliance before the enforcement program finds you.
    And when the program does find you, if you're looking at 
serious violations, and some of these cases involve thousands 
of violations over many years, you should pay a penalty and 
there should be no apology for that. And that penalty should 
sting. It should make you think twice about doing it again. 
That's fundamental. So I just want to say penalties do matter. 
They're not unimportant. And if you stop basically making 
people pay those penalties and fines, you won't get a lot of 
voluntary compliance.
    It's good to hear that the Assistant Administrator 
appreciates the great work of the enforcement program and I 
believe Ms. Bodine means it. I can't help but say these are the 
same great people who the administration keeps trying to pink 
slip. So the attitude seems to be you do great work; we just 
need less of it. That seems to be the message from the 
administration. You just can't have it both ways.
    You'll hear a lot about cooperative federalism being used 
to sell the idea of a retrieving EPA enforcement presence. 
That's a handoff of EPA responsibilities to States that do not 
have the budgets and, in many cases, do not have the same 
authority EPA has to enforce the law.
    You violate the Clean Air Act and EPA is coming at you, you 
can pay up to $100,000 per day for each violation. That's under 
the statutes you wrote. In many States, $10,000 is the maximum. 
You're just starting with fewer cards. You can't negotiate an 
outcome nearly as well as EPA can in that kind of lopsided 
situation.
    I just want to close by referring Members to the charts at 
the back. There, I've tried to show a list of plants where the 
communities face exposure to toxic pollutants and other noxious 
chemicals and hazards. And those have been documented by EPA in 
inspections or through monitoring records. They have been 
sitting for years with no enforcement action. In some cases, 
thousands of violations at these plants.
    So where's the beef? You know we want to focus on outcome. 
We should be asking what's going to happen with those cases.
    Last but not least, EPA will never run out of work. I've 
given you examples of the tips and complaints called into the 
National Enforcement Response Center that involve blowing lead 
dust into the environment, burning hexavalent chromium, dumping 
pollutants into the air, land, water, sewers, and those need 
attention.
    Thank you for your time.
    [The prepared statement of Mr. Schaeffer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. DeGette. Thank you.
    Dr. Sellers, you are recognized for 5 minutes.

                   STATEMENT OF CHRIS SELLERS

    Dr. Sellers. Thank you for inviting me. My name is Chris 
Sellers and I'm a professor of environmental history and I'm 
director of the Center for the Study of Inequalities, Social 
Justice, and Policy at Stony Brook University. But I'm here 
today as a member of the Environmental Data and Governance 
Initiative, a network of more than 170 academics and other 
professionals and volunteers. We've been monitoring change the 
U.S. EPA since the beginning of the Trump administration.
    I head up an EDGI research team interviewing recently 
retired and current EPA employees. Our early findings have been 
published in major scholarly outlets like the American Journal 
of Public Health. Over the last year, I have joined with EDGI 
colleagues Leif Fredrickson, and Marianne Sullivan, and others, 
to study this most critical function of the Agency, which we 
learned to be threatened, enforcement.
    We have researched the EPA's own public data and records 
supplemented by internal documents provided by interviewees. 
All point with startling unanimity to the same conclusion: Over 
the past 2 years, EPA enforcement has declined significantly. 
The only question has been just how badly.
    Well, fortunately, EPA has now released its fiscal year 
2018 data and that's provided us and everyone else with clear 
answers. So with my testimony, I've included a 32-page 
compendium of charts and other analysis of this data, combining 
it with earlier publicly available EPA enforcement data. We 
have the links on our Web site, if you wish to follow them.
    It shows a decline in enforcement that is dramatic and 
alarming with a speed and scale that have only a single rival 
in the Agency's half-century history and that's the early 
Reagan administration in the early '80s, when they actually 
broke up EPA's enforcement wing.
    Most of the available measures of the Agency's performance 
are registering 10- or 15-year lows at the very least. To find 
a lower number of civil judicial referrals, we've talked about 
this a little bit, these are for the most egregious offenses to 
the Justice Department, you have to go back to 1976 and, as we 
said, total civil cases to 1982. People have already talked 
about that.
    By almost any measures, EPA is doing worse. Other measures 
by which EPA assesses its own enforcement don't run as far 
back, yet the Trump years still vie with the lowest ever 
recorded civil cases concluded to 1994, civil fines levied 
lowest since 1987, and I can go on. EPA's been curbing its 
ability not just to punish but to find violators.
    In 2017 inspections, these you know checking for 
compliance, those were the lowest in 25 years and then they 
fell still lower in 2017. Drops in inspections, which are the 
front end of the enforcement pipeline strongly suggest that the 
decline in EPA enforcement has not yet hit bottom. By almost 
any measure of its actions, EPA is backing off from its 
longstanding role as the Nation's top environmental cop.
    What EPA employees have told us in the course of our 
interviewing project strongly confirms the picture suggested by 
EPA's enforcement numbers, Ms. Bodine's testimony aside.
    Over the last 2 years, my team has conducted 100 
confidential interviews with recently retired and current EPA 
staff, a quarter of whom work directly in enforcement. Of the 
last 24 interviews, including those in enforcement and out, all 
drawing on Trump administration experience, 75 percent of these 
mentioned problems with enforcement. It's widely known.
    Their testimony offers a concrete and plausible account 
also of what has driven the drop. Environment enforcement staff 
have gotten a message that industry is in the driver's seat, 
that they are to bow to its request. We've heard stories about 
the staff exodus, about members of the regulated communities 
becoming emboldened. We've documented a widespread belief among 
EPA staff that, in practice, this so-called cooperative 
federalism is turning out to mean deregulation, plain and 
simple.
    With rare uniformity, the evidence we found adds up to a 
convincing picture of a sad truth: EPA is extracting its own 
teeth. This is not just some bureaucratic reshuffle. Less 
enforcement will have real consequences for many Americans, 
especially those living nearest to these potential 
environmental threats.
    In 2008 under George Bush, EPA enforcement actions 
protected eight million people's drinking water and last year, 
that was down to 500,000. So, a plummet of several-fold. That 
level of inaction--that nearly begs for another Flint.
    Not only is the enforcement drop corroding the Federal 
commitment to protect health and the environment, it is 
weakening the ability of States to do so. Already, we believe, 
it has all but ensured significant deterioration of our 
Nation's public health and environment in the years ahead.
    Thank you.
    [The prepared statement of Dr. Sellers follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
   
    Ms. DeGette. Thank you.
    Mr. Buckheit. Chair DeGette----
    Ms. DeGette. Hang on. Mr. Buckheit----
    Mr. Buckheit. Yes.
    Ms. DeGette [continuing]. For 5 minutes. Thank you.

                 STATEMENT OF BRUCE C. BUCKHEIT

    Mr. Buckheit. Thank you Chair DeGette, Ranking Member 
Guthrie, and Members for inviting me here today.
    I have been involved in Clean Air Act enforcement issues in 
a variety of roles since 1984. I would like to focus my remarks 
this morning on the recent policy statements of the Enforcement 
Office and advise the committee of what I think that portrays.
    Overall in my--and so I would ask that my written testimony 
be submitted for the record.
    Ms. DeGette. Without objection, all the witnesses' 
testimony will be part of the record.
    Mr. Buckheit. Thank you.
    Overall, the broad decline in the air enforcement metrics, 
in my view, is neither surprising nor accidental. This view is 
based on my years of experience in this area, including my 
personal interactions on many of these same air enforcement 
issues with Acting Administrator Wheeler and Assistant 
Administrator Wehrum in the 1998 to 2003 time frame. It is also 
based on recent Agency public statements, rulemaking proposals, 
and revised enforcement policies. Notably, these new 
enforcement policies are devoid of any measures to deter future 
violations of the Act.
    The administration's push to exit the enforcement arena 
ignores the history of air pollution control. Prior to the 
1970s, States were primarily responsible for air pollution 
control. Federal authority over air pollution was either 
entirely missing or merely advisory. Over time, however, it 
became clear that deferring to the States did not work and so 
Congress adopted the 1970 Clean Air Act to end the race to the 
bottom among States. The CAA provides that once EPA has 
provided 30 days' notice to a State, EPA may enforce as 
appropriate.
    Enforcement policies that manage the Federal, State, and 
local roles have been developed over the years and worked well 
but this does not mean that EPA and State program managers must 
always agree. EPA has a job to do and many States do not have 
the political will to force their companies to retrofit with 
expensive pollution controls. This fact is documented by years 
of State enforcement records. There is no reason to believe 
that EPA's ceding near total enforcement authority to the 
States will alter the value that the different States place on 
environmental enforcement.
    EPA has now declared mission accomplished and deprioritized 
new air enforcement in what's called large emitting sectors. It 
has also likely walked away from ongoing investigations 
commenced under the previous administrations.
    While EPA says that it will complete the ongoing 
enforcement cases, that is to say matters that have already 
been referred to the Justice Department, it does not commit to 
complete the ongoing enforcement investigations in these 
sectors that were commenced under the Obama administration.
    EPA justifies abandoning the utility sector because 
emissions have declined as a result of enforcement actions 
taken against some companies years ago and subsequent EPA 
regulations. However, the EPA investigations during my tenure, 
and more recent investigations in the last few years, each show 
substantial noncompliance within the sector and this is the 
single largest polluting sector, on a unit-by-unit basis, in 
the country. This is where the money is.
    This sector also has a fairly substantial percentage of 
units that are not well controlled. My recollection is is that 
about a quarter of the plants don't have full on SO2 controls 
and half or more are not fully controlled for nitrogen oxides.
    EPA says that it is done with the other sectors because it 
has, quote, ``required controls or commenced investigations 
at'' 90 percent or more of the facilities in those sectors. 
However, commencing an investigation is not the same thing as 
completing an enforcement action.
    As it abandons the existing sectors, EPA does not identify 
any other large emitting industrial sectors to replace them. 
You heard earlier about targeting. Well there is no targeting 
in EPA's new plan. To say that you are going to target 
nonattainment areas provides no guidance at all. Where and how 
are you going to reduce emissions within the nonattainment 
areas?
    Several months before I left EPA, senior management had 
advised me that on a forward-looking basis we would not be 
enforcing the rules as they were on the books but as EPA 
intended them to be and had proposed them to be under change 
regulations. We now see the administration again seeking to 
change the New Source Review rules and I strongly suspect that 
what enforcement decisions are being made are being made on the 
basis of what they would like the new rules to be.
    Thank you.
    [The prepared statement of Mr. Buckheit follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Schaeffer. Thank you very much, Mr. Buckheit.
    Dr. Shimshack, you are now recognized for 5 minutes.

                 STATEMENT OF JAY P. SHIMSHACK

    Dr. Shimshack. Chair DeGette, Ranking Member Guthrie, 
distinguished members of the committee, thank you for the 
opportunity to testify. My name is Jay Shimshack. I'm an 
associate professor of public policy and economics at the 
University of Virginia's Frank Batten School of Leadership and 
Public Policy.
    I've been conducting research on environmental enforcement 
and compliance for nearly 20 years now. Recently, I've devoted 
considerable efforts to synthesizing the relevant state of 
knowledge in the literature and my testimony today emphasizes 
two themes.
    First, the evidence indicates that traditional monitoring 
and enforcement actions get results. And second, the evidence 
indicates that further devolution of environmental oversight 
from Federal and regional offices to State or local agencies 
may have important consequences for human health and the 
natural environment.
    Before proceeding, it's worth noting what I mean by the 
evidence. A large and growing multi-disciplinary literature 
assesses environmental compliance by rigorously analyzing data. 
The methods are diverse. The evidence spans air, water, waste, 
oil, and other pollution.
    So some details on effectiveness: My work and that of many 
others shows that environmental inspections and fines enhance 
compliance and reduce pollution. Inspections and fines reduce 
immediate harm, as evaluations and requirements of 
administrative or judicial actions generate pollution 
reductions.
    Second, inspections and fines improve future environmental 
performance at the evaluated or sanctioned facility.
    Third, inspections and fines spill over to improve 
environmental performance at other facilities located under the 
same jurisdiction as the sanctioned facility via regulator 
reputation effect.
    And fourth, inspections and fines can induce facilities to 
go beyond compliance and reduce pollution below their permitted 
levels.
    The literature on the effectiveness of alternative 
approaches to promoting compliance, like enforcement actions 
without penalties, voluntary programs, cooperative 
arrangements, information disclosure and compliance assistance 
is much smaller and the results are considerably more mixed.
    My read of this literature is that environmental compliance 
tools beyond traditional inspections and fines can be effective 
when used as complements to traditional regulatory approaches 
but not as substitutes to traditional approaches.
    Some details on devolution: As has been stated at several 
points today, the majority of environmental permitting, 
inspection, and sanction activities are currently delegated to 
State and local authorities. Scholars have long-noted 
advantages and disadvantages of this system. One advantage is 
that State and local agencies may have better information on 
local conditions and preferences so activities can be more 
carefully tailored to local circumstances. On the other hand, 
the literature shows that decentralized oversight has 
disadvantages as well. The evidence suggests that devolved 
oversight can cause States to perceive a need to compete with 
one another to attract new business with lax environmental 
enforcement.
    Decentralized enforcement can fail to adequately address 
pollution impacts crossing State borders or attributable to 
large firm operating in many States simultaneously. 
Decentralization can heighten incentives for local regulators 
to pursue the interest of the regulated community, rather than 
the interest of the general public.
    My own recent work also illustrates another peril of 
devolution. Colleagues and I show that enforcement in a highly 
devolved system can lead to unintended enforcement spillovers 
across borders. Increases in enforcement pressure in one State 
provide incentives for competitors in other States to increase 
production and pollution. We show that this happens under the 
U.S. Clean Water Act. Pollution reductions from more 
enforcement in one State can be offset by increased pollution 
by competitors in other States.
    Results suggest that enforcement oversight may require more 
rigorous regional and national coordination than is currently 
available.
    Some implications: The evidence suggests that all else 
equal, reductions in EPA monitoring and enforcement actions 
will sacrifice benefits for environmental quality, human 
health, property values, and other endpoints.
    In principle, reductions in EPA monitoring and enforcement 
could be offset by countervailing increases in State and local 
environmental monitoring and enforcement activity. As a matter 
of practice, further devolution of oversight comes with risks 
for environmental quality, human health, and property values.
    Chair DeGette, distinguished Members, this concludes my 
remarks. I hope these comments provide a perspective from 
academic research on the important matters at hand.
    Thank you.
    [The prepared statement of Dr. Shimshack follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Ms. DeGette. Thank you, Doctor.
    Dr. Nelson, you are recognized for 5 minutes.

                 STATEMENT OF BAKEYAH S. NELSON

    Dr. Nelson. Thank you, Chair DeGette, Ranking Member 
Guthrie, and members of the Oversight and Investigations 
Subcommittee for the opportunity to testify here today about 
EPA's enforcement record and the implications for the eight-
county Houston region.
    I am the Executive Director of Air Alliance Houston, a 
local nonprofit organization that works to improve air quality 
and public health through research, education, and advocacy.
    Illegal releases of air pollution are all too common in 
Texas. Industry says these releases are unavoidable, yet they 
also know the U.S. Environmental Protection Agency and Texas 
Commission for Environmental Quality will not hold them 
accountable. This leaves people across Houston and Texas almost 
defenseless against harmful air pollution.
    More than 400 petrochemical facilities, including two of 
the four largest U.S. oil refineries reside in Harris County. 
Emissions events in Texas have been found to lead to the 
premature deaths of at least 16 people and $148 million in 
health-related costs per year. TCEQ, however, fails to penalize 
violators 97 percent of the time, according to an analysis by 
Environment Texas. This general unwillingness to enforce the 
law has essentially given industry a pass to poison.
    The Valero Houston Refinery, for example, released 
significant amounts of hydrogen cyanide into the air in 2016, 
despite not having a permit to do so. The consequence? There 
has been none to date. Neither EPA nor TCEQ has taken 
enforcement action. This is extremely concerning because the 
Valero refinery is located beside Houston's Manchester 
community, where 97 percent of the residents are people of 
color, 37 percent live in poverty, and 90 percent live within 
one mile of an industrial facility that is subject to the EPA's 
Risk Management Program. Many homes are within yards of the 
refinery, which has self-reported more than 200 unauthorized 
releases of toxic air pollutants since January 2003.
    High exposures to hydrogen cyanide can be extremely harmful 
to people's health and can result in death within minutes, 
while exposure at lower concentrations can cause eye 
irritation, headache, confusion, nausea, among other health 
effects.
    Hurricane Harvey serves as a cautionary tale about the 
vulnerability of millions of Americans who live near chemical 
plants. It also revealed how ill-equipped the State of Texas 
and the EPA are to handle disasters. During Harvey, over eight 
million pounds of pollution escaped into the air because of 
inadequate preparation for the storm by industry, EPA, and 
TCEQ.
    The biggest emissions release occurred in Galena Park, a 
predominately Latin and low-wealth community along the Houston 
Ship Channel. Two storage tanks at the Magellan Terminal 
released more than 11,000 barrels of gasoline. The company did 
not report the incident until 11 days after the spill occurred, 
according to the Houston Chronicle.
    Life-long Galena Park resident, Juan Flores, who works as a 
community organizer for Air Alliance Houston, said he and his 
neighbors smelled the strong odor of petroleum for several days 
after Harvey. People complained about the extreme stench, 
burning eyes, and more. They closed doors and windows but many 
still could not escape the odor, yet EPA and TCEQ have taken no 
enforcement action against Magellan.
    Galena Park is just one of many examples of how communities 
suffered public health impacts from the storm and of the 
inaction by EPA and TCEQ. During and in the immediate weeks 
after the storm, several organizations collected information 
and surveyed residents about the public health impacts. Many 
reported worsening health conditions yet, EPA and TCEQ are not 
holding the polluters accountable and have not yet required 
action to prevent similar problems in the future.
    Texas needs robust oversight from EPA because the State 
also limits the ability of local agencies to pursue enforcement 
actions against industrial polluters. Significant challenges 
exist to local enforcement of the Texas Clean Air Act. 
Specifically, one of the challenges to local enforcement of the 
Texas Clean Air Act is that, in some types of cases, the city 
must notify the TCEQ of a violation and give the State agency 
the first opportunity to determine whether to pursue an 
enforcement action. However, as previously noted, TCEQ fails to 
penalize violators 97 percent of the time.
    Enforcement action is particularly critical for communities 
of color and low wealth, as hazardous facilities are 
disproportionately concentrated in these neighborhoods, 
compromising the health and safety of people with some of the 
greatest health challenges and the fewest resources to address 
these issues.
    The overwhelming majority of incidents that occurred during 
Harvey took place in or near environmental justice communities. 
Years ago, EPA had recognized the need to make preventing 
chemical disasters a National Enforcement Initiative. The 
communities in Houston haven't seen EPA make good on that 
promise.
    Even worse, after committing to an increase in enforcement 
resources to the most overburdened communities in EPA's 
Environmental Justice Strategic Plan, the Agency is, instead, 
turning its back on communities that need enforcement the most, 
like Houston. These communities simply cannot rely on 
compassion or the good will of industry to comply with the law.
    In conclusion, I want to thank the subcommittee for 
conducting this hearing and for the opportunity to testify 
today.
    [The prepared statement of Dr. Nelson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. DeGette. Thank you, Doctor.
    Mr. Tenpas, you are now recognized for 5 minutes.

                 STATEMENT OF RONALD J. TENPAS

    Mr. Tenpas. Madam Chair DeGette, Ranking Member Guthrie, 
members of the subcommittee, thank you for the opportunity to 
be here today and offer my perspective on environmental 
enforcement efforts.
    Just briefly, by way of my background on this, I've spent 
approximately 20 of my 30-year legal career focused on issues 
of enforcement of Federal law and regulation, seeing it both 
from the perspective of the government and the perspective of 
those who are subject to those laws and regulations.
    I started by spending 12 years at the Justice Department, 
beginning as an AUSA indeed in Congressman Castor's home 
location as an AUSA in Tampa, Florida. I then spent, after 6 
years as a line attorney, I spent 6 years as a political 
appointee, including in two Senate-confirmed posts as a United 
States Attorney in the Southern District of Illinois, and then 
later as the Assistant Attorney General for the Environment and 
Natural Resources Division, the ENRD, as it is often called in 
shorthand. Just like you have been referencing OECA here at 
EPA, the ENRD is the group of lawyers that really take on all 
of the major Federal environmental cases that end up in the 
courts, including, of course, the most significant Federal 
environmental enforcement cases.
    And then following that time at the Justice Department, 
I've spent the last 10 years in private practice assisting 
clients, as they say, as they assess their environmental 
obligations and address potential violations.
    From that there are sort of five overall observations I 
would offer to the committee today. First, as there has been a 
great deal of discussion, both EPA and DOJ do try to measure 
and report on their enforcement results and EPA is currently 
using 12 major metrics. This data is, as I often put it, noisy. 
Single case outcomes from year to year can drive the annual 
results, making it sometimes difficult to discern fundamental 
trends.
    And so I would urge some amount of caution in drawing 
strong conclusions based on any single subset of those metrics 
or from even a narrow, relatively narrow period of years, a 
single year, or 2 years.
    As I look at the most recent EPA data that has been 
published and that the committee has been discussing, I see 
what I regard as a pretty typical mixed bag. Some enforcement 
metrics are up. From what was observed during periods of the 
prior administration, some are down, some are roughly in line 
with prior history. Thus, to me, that data doesn't overall 
suggest there has been an abandonment of environmental 
enforcement.
    Second, that kind of level of stability there is not 
surprising to me, given that between EPA and DOJ there is a 
very large and dedicated group of career professionals. And 
that group ensures that, regardless of administration, there is 
always likely to be a meaningful and continuous enforcement 
effort, as there should be.
    Third, for all of the attention that these annual 
statistics may get, at the end of the day they are proxies and 
they are somewhat poor proxies for the real objective here, 
which is consistent compliance with our environmental 
regulations. Enforcement is not an end in itself. The purpose 
of enforcement is to incentivize and, when necessary, to coerce 
compliance with our environmental regulations.
    And this leads to my fourth point, which is that we should 
always be open to the possibilities that there are better ways, 
there are alternative ways to secure compliance. Use of the 
enforcement stick need not be and likely should not be the only 
strategy. In this respect, things like voluntary self-reporting 
programs and similar incentive systems that aren't always 
accompanied by formal enforcement actions or a formal 
enforcement stat, as people in the government sometimes put it, 
those programs can be very important nevertheless.
    Finally, I will just say I have yet to meet the client who 
has taken the view that, because there is some impression or 
some reporting as has been discussed here, that enforcement 
efforts are down, it's going to cut back on its own 
environmental and compliance efforts. And one of the things 
that I think the Congress and this country should be proud of 
is that we know had a robust body of environmental statutes for 
several decades and that has in fact spurred within the 
corporate community them to develop large environmental health 
and safety professional staff who do believe in and are 
committed to complying with the law and who are well aware that 
there is an active and effective sect of career professionals 
at the enforcement agencies, Federal, State, and local. They 
are aware that there is more than one agency on the job, 
besides the EPA, under our scheme of cooperative federalism.
    Thus to me it is likely a false narrative to assume that 
even if enforcement efforts are subject to some adjustment at 
the Federal level, the reaction within the regulated world is a 
corresponding increase in noncompliance. I simply don't tend to 
see that level of cause and effect in my own observations.
    So I thank you for the opportunity to be here today. I 
appreciate the committee's invitation, and I look forward to 
addressing any questions.
    [The prepared statement of Mr. Tenpas follows:]    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. DeGette. Thank you so much, Mr. Tenpas, and thanks to 
the entire panel.
    The Chair now recognizes herself for 5 minutes.
    On the first panel today, we heard about some of the key 
EPA enforcement mechanisms and how the enforcement figures have 
really just plummeted by pretty much any index under this 
administration. For example, we heard that EPA performed fewer 
inspections last year than it had in over a decade. We heard 
that the injunctive relief figure was the lowest in 15 years. 
We heard that the civil penalties were the lowest in nearly 25 
years, and the number of civil cases initiated was the lowest 
since 1982. So I just want to ask some questions about this.
    Mr. Schaeffer, in your written testimony, you said quote, 
the ``EPA's enforcement results for the 2018 fiscal year were 
historically low by almost every measure.'' Is that accurate?
    Mr. Schaeffer. That is right.
    Ms. DeGette. OK. Now, you are a former EPA career 
enforcement official. And so I don't know if you heard Ms. 
Bodine's testimony, but she seemed to think that these 
statistics were unimportant and that in fact EPA's enforcement 
activities were just fine for a variety of reasons.
    What do you think the low numbers tell you about the EPA's 
enforcement of environmental laws by this administration? And 
are you concerned about some of these indicators and, if so, 
which ones?
    Mr. Schaeffer. So Madam Chairman, I am concerned. I think 
first of all, these are measures that the EPA enforcement 
program itself has selected to reflect their performance and 
what you get out of enforcement.
    Ms. DeGette. So it is their own statistics.
    Mr. Schaeffer. Their own statistics and these are 
performance measures that are published year after year.
    And I think it is true that across the board, with very few 
exceptions, they are all very far down. So they are well below 
not just prior years, the prior few years, but historical 
averages and that is of concern.
    Ms. DeGette. Now, Mr. Buckheit, you are also a former EPA 
career enforcement official. So do you agree with Mr. Schaeffer 
that these indices can be used to see whether the Nation's 
environmental laws are being adequately enforced?
    Mr. Buckheit. Yes, I do. I mean they are all sort of a 
mosaic that look at different parts of the program and when you 
put them together, you get an overall picture of decline.
    Ms. DeGette. An overall picture of decline?
    Mr. Buckheit. Yes.
    Ms. DeGette. OK, thank you.
    Now last year, the President's budget request called for a 
nearly 25 percent cut to the Agency. Had Congress not prevented 
those cuts from taking place, the budget would have been at its 
lowest level since 1991.
    So Mr. Schaeffer, I wanted to ask you what message did last 
year's budget request send to polluters and EPA's own staff 
about the approach to environmental enforcement?
    Mr. Schaeffer. That enforcement doesn't matter. Enforcement 
requires staff. You can't do the work without people. You are 
trying to cut the budget by a quarter, you are telling the 
staff their work doesn't matter.
    Ms. DeGette. Now what did you make of Ms. Bodine's 
statement just a few minutes ago that, irrespective of what the 
President's budget for next year, she is going to support it? 
What do you think that message that sends in terms of 
enforcement?
    Mr. Schaeffer. Well, I think I suppose she has to, as the--
--
    Ms. DeGette. Well, yes, but what do you think? What message 
do you think that sends?
    Mr. Schaeffer. I think it is confused, anyway. It is pretty 
hard to constantly refer to the great work of the program at 
the same time that your President is trying to slash it by so 
much.
    Ms. DeGette. Thank you.
    Dr. Shimshack, I wanted to ask you because Ms. Bodine 
seemed to indicate that well, some of the national figures 
weren't so important because the EPA was working with the 
States on enforcement. And I think you would agree that State 
enforcement is important. Is that correct?
    Dr. Shimshack. That is correct.
    Ms. DeGette. But is that in a vacuum or is it important to 
do that in conjunction with these other efforts?
    Dr. Shimshack. So I think provided States have the 
resources and the capacity. Even then, my best guess is that 
further devolution may result in declines in environmental 
quality, as I testified.
    Ms. DeGette. Why is that?
    Dr. Shimshack. Again, there are issues of spillovers across 
States when they are not well coordinated. There are issues of 
regulatory capture, et cetera, so the things that I mentioned 
in my testimony. I do want to emphasize States do great work.
    Ms. DeGette. Well right, but they can't do it in a vacuum.
    Dr. Shimshack. But they are already doing the overwhelming 
majority of the day-to-day oversight. There is enormous 
variation in enforcement intensity across States. And States 
are already being asked repeatedly to do more with less.
    Ms. DeGette. Speaking about the enormous difference between 
enforcement in States, Dr. Nelson, I think that is what your 
testimony was about is the enforcement by your State of Texas.
    Dr. Nelson. That is correct.
    Ms. DeGette. So do you think Texas can be relied on to do 
the environmental enforcement by itself?
    Dr. Nelson. I don't think so.
    Ms. DeGette. Thank you. Thank you very much.
    The Chair now recognizes the gentleman from Kentucky, the 
ranking member, for 5 minutes.
    Mr. Guthrie. Thank you very much. So this has been an 
important hearing and I appreciate everybody being here.
    Mr. Tenpas, in your testimony, you specifically talked 
about noisy metrics and that single case outcomes can drive 
annual numeric enforcement results reported by EPA and DOJ. Can 
you further get into that? I know you only had 5 minutes to 
make five points but I would like you to talk about how the 
metrics are noisy and how that can show trends in reporting 
that may not be accurate.
    Mr. Tenpas. So what I meant by noisy is that you can get 
particularly significant individual cases in any year that 
cause that year to spike. And we have heard some discussions of 
those, BP in the year that matter was resolved, Volkswagen in 
the year that matter was resolved, and that feeds across the 
variety of metrics that you might have.
    In addition to some of these penalty ones, as was 
referenced, there is data on, for example, what is the level of 
commitment to clean up materials that have been achieved 
through various agreements and consent decrees. That as well 
can be very heavily influenced by a single case resolution with 
one big company in a single year.
    Mr. Guthrie. OK. You talked about--we have all talked about 
other measurements other than just enforcement. And I think 
someone said the trends were down across a lot of those 
measurements.
    Given what EPA measures, what else do you think we should 
ask them to measure that would give us a better indication of 
what they are doing?
    Mr. Tenpas. Well I think you have heard a couple of good 
ideas from Ms. Bodine this morning, when she talked about 
trying to find ways to capture times when they have worked 
effectively with a State to potentially do an inspection and 
help identify a problem that then the State takes the lead in 
working with the facility in resolving.
    You have heard ideas, you know I think the tracking of the 
self-reports that they have begun and I think is something of a 
more recent development, I mean it precedes this administration 
but I think it is more recent, is a very helpful metric for 
folks to be watching and to see how--what that produces.
    Mr. Guthrie. OK and also, Mr. Tenpas, as you currently note 
in your testimony, the objective of EPA is to promote and 
ensure compliance with our environmental laws and regulations. 
In your opinion, what tool does EPA have that is most helpful 
in ensuring compliance with environmental laws and regulations?
    Mr. Tenpas. I don't know that I have a single tool. I mean, 
part of that is what we are I think here to discuss today. I 
think, as said, it is the mosaic of tools, the threat of 
investigations, the use of and bringing cases, the use of 
inspections, the working very cooperatively with States in the 
regime that Congress established of cooperative federalism. I 
mean Congress anticipated the States to have a kind of primacy 
type role and EPA working with them to support them are 
probably the three most important things.
    Mr. Guthrie. So I always look in these hearings if 
something can result in Congress making corrections and fixes 
to this. That is one of the reasons we do this.
    So are there any tools that EPA does not have that would be 
helpful for it to have to help ensure compliance with 
environmental laws and regulations?
    Mr. Tenpas. There is nothing that occurs to me immediately. 
I think there are always sort of adjustments that you make in 
the program as you go along and as conditions change.
    I mean as I noted in my testimony, there are some metrics, 
you know one of the metrics has been sliding for years, and 
years, and years. I take that to be a marker of success because 
it is showing that some of the worst problems in terms of 
pollution locations and pounds to be corrected have been dealt 
with. And now we are at a different point in our enforcement 
and compliance approach.
    Mr. Guthrie. So I know Kentucky had a program in OSHA not 
EPA but had a program that industry could invite OSHA 
inspectors in. And if they came in and found negligence, there 
were certain exceptions, that they came in and found they 
immediately got fined. But what they really did was come in at 
the invitation of the company, do inspections, here are things 
you need to improve, go back and do follow-up. So the goal with 
that was compliance, not necessarily just getting a fine to go 
move forward. And I don't know the data because I like 
professors to do studies on things because data is data. But I 
don't know the result. But I would have to feel like that we 
were getting more compliance, even though we were getting this 
anecdotal less enforcement dollars.
    Mr. Tenpas. And that sounds right to me. There is, as I 
say, a variety of facilities they have staff, they do self-
audits, they do inspections, they sometimes bring in third 
parties. But the government has a certain level of inspection 
expertise as well. And so a program that allows a company to 
draw on that expertise without necessarily feeling that its 
reward for that if something is identified is going to be a 
massive penalty. I can see how that program could be very 
successful in improving compliance outcomes.
    Mr. Guthrie. All right, well thank you.
    And I yield back. My time has expired.
    Ms. DeGette. Thank you.
    The Chair now recognizes the gentlelady from Florida, Ms. 
Castor, for 5 minutes.
    Ms. Castor. Thank you. Thank you to all the witnesses for 
being here today.
    I would like to touch on EPA's 2018 annual enforcement 
numbers and the trends, including what the overall picture 
tells us about the lack of environmental enforcement under this 
administration.
    Mr. Schaeffer, your organization recently analyzed EPA's 
enforcement trends, in light of the Agency's very own 2018 
report. Broadly speaking, I think I heard you answer to 
Chairwoman DeGette that the message that you take away is that 
they do not prioritize enforcement of our bedrock American 
environmental laws. Is that correct?
    Mr. Schaeffer. I think that is true.
    Ms. Castor. Would you go as far as to say that EPA 
currently is abdicating its responsibility to the American 
public?
    Mr. Schaeffer. I would.
    Ms. Castor. And Dr. Sellers, do you agree with that as 
well?
    Dr. Sellers. I agree with both those answers.
    Ms. Castor. Because you recently contributed to a report on 
the erosion of EPA's enforcement, the same organization that 
developed this report analyzed the annual report. What else do 
you want the American people to understand is going on at EPA 
right now?
    Dr. Sellers. Well, I think there are a lot of things going 
on kind of below the publicity surface, below the level of the 
media, that a lot of the employees feel like that industry is 
absolutely calling the shots. This is a quote from one of our 
interviewees.
    Ms. Castor. Yes, can I just stop you there? You, in your 
testimony, you said that your organization conducted hundreds 
of interviews with recently retired and current EPA employees. 
And you say that many told you of pressures applied by Agency 
leadership explicitly urging EPA employees to go easy on 
industry.
    Give us some examples. What did they say? How many of the 
folks you interviewed said that?
    Dr. Sellers. I would not say hundreds. We did a hundred 
interviews.
    Ms. Castor. OK.
    Dr. Sellers. I mean, examples include, for instance, Scott 
Pruitt parading around the Agency with a trade association 
group and then calling people in from the career staff, the 
enforcement staff, to berate them and tell them they should 
listen to this trade association group.
    And I could multiply those stories. They are happening--
they happened all around the Agency, all these kinds of 
pressures that staff was under. And it registered. And so I 
think that is one of the big reasons.
    Also that they have had to report even routine inspection 
initiatives now to the political leadership. They have had 
pushback from the regulated communities. It has been harder to 
do their jobs just on the ground because of all the industries 
feeling embolden.
    For instance, a person doing a housing inspection for lead, 
a childhood brain-damager, found that landlords are not 
returning her calls or they were getting angry on the phone 
with her.
    So there is kind of micro-level pushback also is a big part 
of it.
    Ms. Castor. And Dr. Nelson, reading your testimony, I 
remember well after Hurricane Harvey and all the reports of it, 
environmental issues, and spills, and leaks in the Houston 
area. And part of your testimony is entitled The Path to 
Poison. I think folks would be appalled to understand that 
after that--while you had the county grand jury indict 
executives of a corporate polluter, EPA did not take any 
enforcement action at all. Is that true?
    Dr. Nelson. Not to my knowledge.
    Ms. Castor. What, in your opinion, has happened with EPA's 
interest in enforcing our environmental laws?
    Dr. Nelson. I think EPA is behaving in a negligent manner 
and communities in Houston and across the country are suffering 
the public health impacts as a result.
    Ms. Castor. Thank you.
    Mr. Schaeffer, given the downward trend of several key 
enforcement indicators, I am worried that in some cases that 
EPA may not be getting the attention they deserve. I understand 
your organization, the Environmental Integrity Project, has 
documented certain cases that you have concerns about.
    Walk us through a few of those examples.
    Mr. Schaeffer. Sure. We have, for example, two plants in 
Louisiana. In one case, the EPA inspectors found massive 
breakdowns in the compliance system that led to release of 
chloroprene, which is very toxic. It is a carcinogen, actually. 
The chloroprene levels downwind in the African American 
community that has been there forever, are way higher than EPA 
thinks is safe.
    We have butadiene coming out of the Firestone Polymers 
plant because, according again to EPA inspectors, the company 
really had no idea what was escaping out of its production 
process. And we are talking here about thousands and thousands 
of pounds. These are not paperwork violations. These are not 
little things.
    This is a company that is in the business of making 
chemicals, and it should know when they get into the 
environment. I don't think that is too much to ask. These cases 
have been sitting for years.
    We have got many other examples. We have got lead being 
blown from facilities that aren't managing their lead emissions 
and causing the air quality to exceed health-based standards in 
communities downwind. Why are these cases--why have they not 
resulted yet, several years later, in some cases 3 or 4 years 
later, in an enforcement action?
    So you are always going to find these problems out there.
    Ms. DeGette. The gentlelady's time has expired.
    Mr. Schaeffer. If you don't, you are not looking.
    Ms. Castor. Thank you.
    Ms. DeGette. Thank you.
    The gentleman from Virginia is recognized for 5 minutes.
    Mr. Griffith. Thank you very much, Madam Chair.
    Mr. Tenpas, we have heard some of the witnesses today 
criticize the administration's emphasis on cooperative 
federalism, implying that cooperative federalism will diminish 
or eliminate the EPA's role in controlling pollution. Is this 
how you understand cooperative federalism to work?
    Mr. Tenpas. No, sir. I mean EPA has a significant role in 
first establishing the rules. It has a significant role 
continuing and being able to investigate both civil and 
criminal violations, pursuing resolution of those cases. But as 
the name implies, cooperative federalism also involves a 
substantial robust and important role for the States.
    Mr. Griffith. So the EPA's role is not eliminated, is it?
    Mr. Tenpas. No.
    Mr. Griffith. And in these bad cases that we were just 
hearing about, the EPA can take action. Isn't that true?
    Mr. Tenpas. I don't know the specifics of those cases but, 
generally, as a general matter, yes.
    Mr. Griffith. Well it was interesting because I was 
listening and it was 3, 4 years. So obviously, it is not 
something new that has caused those problems that were just 
mentioned.
    What do you think the benefits are of the EPA's enhancing 
its collaboration with State and Tribal partners to enforce the 
environmental laws?
    Mr. Tenpas. Well I think you get a variety of things. One 
is EPA does have a level of expertise that it can, by working 
with the States, transfer to officials in those States as to 
the best practices for inspections, as to particular areas of 
concern, as to what the regulatory requirements are overall in 
discussing and making sure there is a clear understanding of 
those.
    So I think you know on the one hand bet, you get that. On 
the other hand, I think part of what undermines all federalism, 
cooperative or otherwise, is a recognition that often local 
officials know their communities best and they have an 
appreciation for the facilities, they have appreciation for the 
issues in the community, and they probably have a sensitivity 
and a level of contact with those facilities in a more regular 
way that just makes them knowledgeable and effective in trying 
to bring compliance to bear.
    Mr. Griffith. And in your opinion, how does cooperative 
federalism help promote a higher compliance rate?
    Mr. Tenpas. Well, as I said, I think it primarily comes 
about through drawing on and making robust the capacity that 
the State has, those officials who are in their communities in 
a regular way, and making them effective in using all of the 
tools we have talked about, again, not just enforcement actions 
but inspections, self-report and auditing programs. The 
effectiveness comes about by making those State officials able 
to do their work in a sensible way.
    Mr. Griffith. And in many ways, I mean if you have a bad 
actor, they are going to be bad actors no matter what. But for 
those people that are struggling in the medium-sized 
businesses, or even in small and large businesses, if they are 
struggling to figure out, ``OK what are the rules here, what do 
I need to do?,'' if they are sensing--and you can correct me if 
you think I am wrong--if they are sensing that there is a no 
win and even if they try hard, they are not going to succeed 
and they are going to get fined or penalized, it just becomes 
an adversarial proceeding.
    Whereas, if you are trying to help them and say ``Look, if 
you do it this way, things will be better and we are not going 
to fine you,'' doesn't that get more cooperation as well? Isn't 
that part of what the EPA is trying to do right now?
    Mr. Tenpas. My sense is that is part of what they are 
trying to do. And I would say just as a general matter for some 
of those, as you say, smaller entities that don't have 
necessarily the staff and the sophistication, they are trying 
hard. They want to follow the rules; sometimes they can be 
quite complicated.
    And there is something to the fact that I think for a lot 
of folks in that situation, the Federal Government sounds big 
and scary. A State government agency feels like a place that 
they think they can go to and get that advice that they need to 
get them to the place they want to be, which is in compliance.
    Mr. Griffith. Yes. In my district you know there are a lot 
of people, and I don't adhere to that, and a lot of people have 
advocated you know just we will abolish the EPA because they 
feel so put down, burdened, oppressed, that they just like 
forget it all. And yet I think the EPA can do some good things 
and that is why I support what the EPA is currently trying to 
do and what you have advocated for here today.
    I appreciate it very much and I yield back.
    Mr. Kennedy [presiding]. The gentleman yields back.
    I will recognize myself for 5 minutes.
    I want to start by thanking the witnesses for being here, 
and your testimony, and your service. And I wanted to begin by 
touching on the importance of deterring those bad actors, some 
of which my colleague just mentioned.
    I am worried that the most recent EPA numbers, as heard 
about earlier this morning, may send the wrong message to 
polluters and that the Agency is in fact failing to deter those 
future violations.
    So Dr. Shimshack, to start with you, sir, your testimony 
touches on this point and you have done some academic work in 
this area. Can you generally speak to the importance of 
deterrence and what approach to enforcement may be needed by 
the EPA to inhibit future environmental violations?
    Dr. Shimshack. Sure. So deterrence, the fact that 
inspections and penalties have implications for deterring 
future violations is important not just in the sanction and 
inspection facility but also there are spillover effects, what 
we call general deterrence of interventions. Those spillover 
effects of inspections and enforcement activities increase 
compliance and reduce pollution among others. And deterrence 
effects can also reduce future pollution beyond compliance 
behavior as well.
    Mr. Kennedy. So for you, Doctor, and for Mr. Schaeffer, 
what specific tools do you believe the EPA has in its arsenal 
to deter would-be polluters and do you believe that they are 
currently effectively using them now?
    Dr. Shimshack first.
    Dr. Shimshack. So I will say that the evidence suggests 
that interventions with teeth, fines are most effective. I 
otherwise defer to Dr. Schaeffer--Mr. Schaeffer.
    Mr. Schaeffer. Well, EPA uses a mix of tools and they have 
always included giving people compliance assistance and helping 
them to understand the rule of the road and those are 
important.
    I think one of the most important things that EPA does as a 
national program is step in against, frankly, some of the 
biggest polluters with lots of political connections and power 
and take enforcement actions that States will not or cannot 
because they don't have the capacity. If the EPA loses that 
ability, then we lose something very important.
    Mr. Kennedy. Are you concerned they are not leveraging that 
capability?
    Mr. Schaeffer. I am concerned about the direction the 
Agency is going in in that way. And we have, again, examples of 
violations that are pretty serious at big plants that just seem 
to be sitting there and not getting attention.
    Mr. Kennedy. And why is that, do you think?
    Mr. Schaeffer. Well, I don't know. I think there is a 
reluctance to enforce in this administration. I just have to 
put that on the table.
    There is a lot of talk about cooperative federalism. It has 
its value but there are certain responsibilities that you can't 
just push on--push off, rather, to the State agencies and I 
think that is letting a lot of these violations just sit.
    Mr. Kennedy. And Dr. Nelson, I wanted to see if you could 
chime in.
    You have noted in your testimony that Texas does not 
penalize 97 percent of its air pollution violations. If that 
number is accurate, and I am sure it is, the State either lacks 
the will or the capacity to deal with a lot of these issues, 
even during nonemergency times.
    So Doctor, can you comment further on what it may mean if 
the State of Texas is failing to penalize air pollution 
violations and how important it is for the EPA to deter bad 
actors, given the State may not always do so, building off of 
what Mr. Schaeffer said?
    Dr. Nelson. So if I understand your question correctly: 
What are the implications of the State not enforcing?
    Mr. Kennedy. Yes, and any reason as to why you think a 
State would not enforce 97 percent of the violations that would 
come up.
    Dr. Nelson. I don't think that the culture supports the 
State enforcing much of the violations. I think the evidence 
speaks for itself.
    I think in terms of the implications of that, that 
communities on the ground are experiencing the public health 
impacts of the State not enforcing the laws of the Texas Clean 
Air Act.
    I don't think that it is cost-efficient in a State like 
Texas for industry to comply with the law, when the risk of 
being caught is low and, even if they are caught, the risk of 
penalty and the penalties are so low as well. So the State of 
Texas can penalize facilities for $25,000 per day, per 
violation. And in that most recent report, they collected $1.2 
million, which is about two cents per pound of the pollution 
that was released.
    Mr. Kennedy. Doctor, going off of what I think somebody 
taught me in law school way back when, if you judge the 
strength of the law by the power of its remedy and you have got 
remedies in place but the State just chooses not to enforce it, 
is there really any regulation to begin with?
    Dr. Nelson. Well the regulation exists. I think the burden 
is on the State agency and the State legislature to make it 
effective.
    Mr. Kennedy. And if there is no cost for compliance?
    Dr. Nelson. If there is no cost for compliance, again, I 
think that industry is going to behave in a manner that 
maximizes its bottom line until it is forced not to.
    Mr. Kennedy. Thank you.
    I yield to Ms. Kuster. Seeing no more from the witness, Ms. 
Kuster, you are recognized for 5 minutes.
    Ms. Kuster. Thank you very much. I appreciate it.
    I will start with Dr. Sellers, if I could. The report you 
contributed to says, quote, ``EPA employees point to budgetary 
uncertainty and staff loss as factors that help explain the 
downturn in enforcement under the Trump administration.''
    Given the budgetary uncertainty and loss of staff that we 
have been discussing here today, what did EPA employees tell 
you about EPA's ability to enforce environmental laws? And if 
you could, give us one or two examples about how EPA was unable 
to go after polluters because of understaffing or this 
approach.
    Dr. Sellers. Sure. Yes, all the employees that we spoke 
with mentioned this factor about losing staff. I mean, there 
has been a gradual attrition and then there is, on top of that, 
the buyouts and so on.
    Ms. Kuster. Does that cause a lack of morale?
    Dr. Sellers. It does. I mean, it doesn't send a positive 
message. I think some of the departures are because people got 
that message and decided to leave.
    In terms of the kinds of things that are being lost, I 
could give you an example, for instance, of someone who is in 
charge of the asbestos program, at the enforcement, that left 
in one of these departures, and there was no exchange of 
knowledge. There was no effort. He had been there 20 years. He 
was kind of the expert on this area, and it was not passed 
along.
    So EPA is now at a loss and there is a big hole there in 
terms of what EPA can offer, even just in an advisory capacity, 
to industry, much less issues of enforcement.
    Ms. Kuster. Thank you.
    And I am going to direct this at Mr. Schaeffer but, to 
continue on that same theme, returning to my questions this 
morning, we in my district, a town called Litchfield, New 
Hampshire, had an incident of per- and polyfluorinated 
compounds, PFAs, caused by a company, Saint-Gobain's. And I 
discussed this morning that we have had to spend millions of 
dollars to hook up these households in this community to clean 
water because their wells are contaminated. They were on 
bottled water the whole time while they waited for that to 
happen.
    In our case, we were fortunate that it did happen, but I 
noticed there was an action plan released on PFAs last week 
from the EPA, but it doesn't seem to include any action, 
despite being called an action plan. While EPA officials said 
they intend to move forward with maximum containment levels, 
there is no commitment in the plan. And I am just curious about 
your response to that.
    And if you could comment, the witness this morning talked a 
great deal about voluntary disclosures and we have been given 
charts that the voluntary disclosures are going up. How can 
they count on these companies to voluntary disclose what they 
know about the contaminants that they have put into our soil, 
and our water, and our air? And are we doing what is needed to 
keep American families safe?
    Mr. Schaeffer. So, Congressman, I don't know the specific 
facts of the New Hampshire case. I would just say in general, 
your fundamental to enforcement and I would say just to justice 
is the responsible party should pay for the problems they 
created and enforcement has a huge role in that. And so I would 
look for that in any EPA strategy to deal with these 
contaminants. I think that would be really, really important.
    The government does, and I was there, I was part of this, 
the government rolls out a lot of plans and makes a lot of 
announcements. What you should look for are deadlines, and 
numerical targets, and specific outcomes. And that----
    Ms. Kuster. And some type of time table. And when I asked 
her about the time table this morning, she said oh I will have 
to get back to you on that. There is no time table, as far as I 
can tell.
    Mr. Schaeffer. Well and maybe they will come back with a 
time table and it is great that you pushed for one. I think the 
government benefits from that kind of push. But without 
deadlines, not much happens in government agencies.
    Ms. Kuster. And what is your experience, just in my waning 
time here, with companies voluntarily disclosing that they have 
massive incidents of pollution, knowing that if they were 
caught, if there was remedy, they would be on the hook to pay 
for that?
    Mr. Schaeffer. They would have to pay. Well you know I 
think in my experience you can get those kinds of voluntarily 
disclosures when you have a strong enforcement program and 
people understand the consequences of not coming forward.
    They also want to know their competitors will be treated 
more or less the same way. If you don't have that level playing 
field, then you come forward, you know cut your deal to clean 
the mess up, and you are looking sideways at your competitors 
and you don't see that happen, then your voluntary compliance 
will fall off the cliff.
    Ms. Kuster. And given Dr. Nelson's comment about State-by-
State, if you are in a State with very low compliance activity, 
why would you? I mean you are going to put yourself at a 
competitive disadvantage.
    So well, thanks to all of you for coming in today. We 
appreciate it.
    With that, I yield back.
    Mr. Sarbanes [presiding]. I thank the gentlewoman for 
yielding back.
    I am going to yield 5 minutes to myself for questions.
    I want to thank you all for being here today. I appreciate 
your testimony.
    I want to come back, as I was this morning, and talk about 
injunctive relief. And obviously, this is a really critical 
enforcement tool. It is saying to industries, it is saying to 
violators, it is saying to polluters you need to adopt a 
different way of behaving. You have to come into compliance 
with certain rules, there are costs associated with that.
    Mr. Buckheit and Mr. Schaeffer, as former EPA enforcement 
officials, tell me why you view this within the toolkit that is 
available to the EPA as such a critical enforcement mechanism.
    Mr. Buckheit. The EPA's enforcement program is not about 
collecting money for the Treasury. It is about protecting 
public health. Fines are a part of that but the really 
important part of that is what measures are installed to reduce 
pollution as a result of your actions. And the surrogate for 
that is the dollar amount of the injunctive relief. That 
reflects the kinds--the amount that must be invested which is 
directly related to the pollution reduction.
    Mr. Sarbanes. Mr. Schaeffer?
    Mr. Schaeffer. I think that answers directly. I think 
injunctive relief captures the cost of cleanup. When you see 
bigger commitments, that tells you that you are finding the 
right cases. You are finding the most serious problems where 
you need companies to make a real long-term investment in 
cleanup.
    Mr. Sarbanes. So I want to go back to the numbers a little 
bit because in fiscal year 2018, the EPA enforcement actions, 
injunctive relief actions resulted in $3.9 billion in 
injunctive relief. According to the Christian Science Monitor, 
this figure is the lowest in 15 years.
    And in that same article, it was indicated that 40 percent 
of that total comes from cases that were settled by the EPA 
during the Obama administration, which means that the fiscal 
year 2018 numbers could have been worse.
    I understand that when you capture these things makes a 
difference. You have to look at what the window is and so 
forth.
    But in any event, given what you know, Mr. Schaeffer, Mr. 
Buckheit, about this and these numbers that I just read to you, 
I am curious just to get your thoughts on the 2018 numbers. 
What do you think they mean and, frankly, is it sending some 
kind of signal to industry, and how are they interpreting that 
signal?
    Mr. Buckheit. Obviously, to state the obvious, they mean 
that there is less activity to reduce pollution coming out of 
the air.
    What I think is happening here is a pipeline issue. You see 
a number of years of fairly robust activity under the Obama 
administration and you have heard different witnesses talk 
about how it takes a period of time to build and maintain this 
pipeline of cases that will go through the system.
    What I saw in the enforcement policies was, I think, that 
the administration is cutting off activity, except for matters 
that are already referred to the Justice Department, in the 
four key sectors that have been identified as priorities. And 
so I think that then creates a gap in the pipeline, which then 
leads to the lower numbers in the bigger cases.
    Mr. Sarbanes. Which means we could see this trend 
continue----
    Mr. Buckheit. I think so.
    Mr. Sarbanes [continuing]. In the future because the number 
of initiatives that are being undertaken now, we will see the 
results or lack of results of that further down the pipeline.
    Mr. Buckheit. I fully agree and I note that they don't have 
any sectors that they are focusing on for future activities, 
you know which big industrial sectors.
    Mr. Sarbanes. Right.
    Mr. Schaeffer, do you have any comments on kind of how the 
industry is going to interpret this?
    Mr. Schaeffer. I think that is a complete answer.
    To be fair, the total value of injunctive relief in any one 
year can be affected by one or two very large cases. But even 
controlling for those outliers, it is a pretty substantial 
drop. And I agree with Bruce that it reflects the fact that 
kind of less is being put in to enforcement than used to be 
and, sooner or later, that plays out in declining results.
    Mr. Sarbanes. And again, I just want to emphasize before I 
close here that if this isn't being exercised properly as an 
enforcement tool, it is sending a signal to industry that, in a 
sense, the cop is off the beat. They don't have to be as 
conscientious about the measures that need to be undertaken 
here.
    Whether they were inclined to do that or not absent 
somebody is leaning on them is a different question but, 
overall, that is not good signaling to have.
    Thank you all very much.
    Now I would like to yield 5 minutes to Congressman Tonko.
    Mr. Tonko. Thank you there, Mr. Chair and welcome to our 
witnesses.
    Mr. Schaeffer, as I understand it, civil penalties are an 
important EPA enforcement tool. I heard some of this last 
exchange and find it interesting. The penalties are monetary 
assessments, obviously, paid by a regulated entity because of a 
violation or noncompliance. They are designed to recover the 
financial benefit a company has obtained by breaking the law 
and they impose added costs to deter firms from breaking the 
law again in the future.
    So my question to you is, very briefly, could you explain 
why civil penalties are an important enforcement tool for EPA?
    Mr. Schaeffer. It has to cost you more when you violate the 
law you know than--it has to cost you more if you violate the 
law and ignore it than not. If there is no sanction, nothing 
hits your pocketbook when you fail to comply with your 
pollution limits, then you have less incentive to comply.
    Some companies with better management will continue to try 
to do that but slowly, the system erodes if people realize you 
never have to pay anything for violating the law.
    Mr. Tonko. Thank you.
    Again, Mr. Schaeffer, according to EPA's annual enforcement 
report for fiscal year 2018, EPA obtained just over $69 million 
in Federal administrative and civil judicial penalties last 
year. The Washington Post noted that the number of civil 
penalties assessed was the lowest since the Office of 
Enforcement and Compliance Assurance was established back in 
1994. While that seems troubling on its face, I will hold up a 
chart that I did in the last for Administrator Bodine that 
adding now 2019 to date, and most of that spike, a huge spike, 
but it is explained I believe by the Fiat Chrysler situation. 
So now we have asked for information we hope to receive 
relatively soon what the impact of 2019 is if you take that 
Fiat Chrysler out of the picture.
    So troubling certainly on the face, is it a legitimate 
concern that we ought to have about those numbers?
    Mr. Schaeffer. Well I think you can take Fiat out and you 
can also take out the very large once in a great while 
penalties like the one for the BP----
    Mr. Tonko. BP and VW.
    Mr. Schaeffer. Right.
    Mr. Tonko. And this chart was adjusted for that.
    Mr. Schaeffer. Right. If you do take those outliers out, I 
think you will still see a decline in 2018 and perhaps 
continuing into 2019 as well.
    Mr. Tonko. And Mr. Buckheit and Dr. Sellers, do you have 
any thoughts on what the latest civil enforcement numbers mean 
like those that I just shared? It seems like we had a few cases 
that drove things, especially now in 2019.
    Mr. Buckheit. I totally agree that the reduction in 
numbers, these numbers reflects badly on the program.
    And I would just add a comment about the mobile source 
enforcement numbers. It is a good thing that the administration 
is doing this and assessing a large fine but you have to keep 
in mind that California has its own independent enforcement 
authorities and California is pursuing this and getting a per 
vehicle penalty associated with it.
    So again, kudos to the administration for getting involved 
in doing this but you know it is a little bit--it is led by 
California in terms of pushing towards those large numbers.
    Dr. Sellers. Yes, I would just say that it is a mistake 
just to focus on the kinds of enforcement numbers that do have 
these big penalties or these big chunks that distort the data. 
If you look at all the other data that is not distorted by that 
kind of sum, and that is most of it, then the declines are even 
more marked and unmistakable.
    So that was what----
    Mr. Tonko. Thank you. And Dr. Shimshack and Mr. Schaeffer, 
do you believe focusing on compliance assistance is a suitable 
substitute? Now, I heard some of that exchange that you had but 
as a suitable--is it a suitable substitute for enforcement 
activity, such as issuing civil penalties?
    Mr. Schaeffer. Certainly not. Compliance assistance is very 
important. A serious violation, unless there is some 
extenuating circumstances especially by large companies with 
deep pockets, they should pay. There is no conflict between 
compliance assistance and enforcement. You need both.
    Mr. Tonko. OK, Dr. Shimshack.
    Dr. Shimshack. My view is that they are complementary and 
not appropriate as substitutes for one another.
    Mr. Tonko. OK. Well you know many of us are concerned about 
the mission statement of EPA taken somewhat lightly. And the 
improvements we have made through the years and some of the 
concerns coming before them, as my colleague from New Hampshire 
raised with PFAS, there is real concern that the enforcement of 
these statutes and various programs become very, very critical 
to the quality of life in the communities that we all 
represent.
    And so I thank you all for sharing your thoughts today.
    With that, I yield back.
    Ms. DeGette [presiding]. Thank you, gentlemen. The charts 
that Mr. Tonko was referring to are part of the package of 
charts that were provided to both Democratic and Republican 
staffs by the EPA when we were being briefed. Ms. Castor also 
referred to one of these charts.
    And so I am going to ask unanimous consent to put these 
charts into the record.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. I want to thank all the witnesses for their 
participation in today's hearing. And I want to remind the 
Members that pursuant to committee rules, you have 10 business 
days to submit additional questions for the record to be 
answered by witnesses who have appeared before the 
subcommittee. I would ask all of you, if you do get these 
questions, to please respond as quickly as possible.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 1:40 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
                                 <all>
</pre></body></html>
